<html>
<title> - THE AVIATION WORKFORCE: INDUSTRY AND LABOR PERSPECTIVES ON TRAINING NEEDS AND CHALLENGES</title>
<body><pre>[Senate Hearing 112-331]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-331
 
                        THE AVIATION WORKFORCE:
                    INDUSTRY AND LABOR PERSPECTIVES
                    ON TRAINING NEEDS AND CHALLENGES

=======================================================================

                             FIELD HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2011

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
73-541                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5b3c2b341b382e282f333e372b7538343675">[email&#160;protected]</a>  

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
    Rebecca Seidel, Republican Chief Counsel and Chief Investigator
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

MARIA CANTWELL, Washington,          JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                DEAN HELLER, Nevada
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 24, 2011.................................     1
Statement of Senator Cantwell....................................     2

                               Witnesses

Douglas R. King, President, Museum of Flight.....................     1
James Hermanson, Ph.D., Chair, Department of Aeronautics and 
  Astronautics, University of Washington.........................     4
    Prepared statement...........................................     6
Michael Greenwood, Senior Manager, Aerospace Academic Alignment 
  Team, The Boeing Company.......................................     7
    Prepared statement...........................................     9
Mark Sieber, Plant Leader, GE Aviation--Yakima...................    12
    Prepared statement...........................................    14
Randall Julin, General Manager, Absolute Aviation Services, Inc..    15
    Prepared statement...........................................    18
Jim Bearden, Administrative Assistant to the President, Aerospace 
  Machinists Industrial District Lodge 751, International 
  Association of Machinists and Aerospace Workers................    29
    Prepared statement...........................................    30
Reba Gilman, Chief Executive Officer and Principal, Aviation High 
  School.........................................................    35
    Prepared statement...........................................    37
Cyndi Schaeffer, Executive Director, Business Training Center, 
  Edmonds Community College......................................    40
    Prepared statement...........................................    43
Joe Dunlap, Ed.D., President, Spokane Community College..........    45
    Prepared statement...........................................    47
Laura Hopkins, Executive Director, Aerospace Joint Apprenticeship 
  Committee......................................................    49
    Prepared statement...........................................    51
Tom McCarty, President, Society of Professional Engineering 
  Employees in Aerospace.........................................    52
    Prepared statement...........................................    54


                        THE AVIATION WORKFORCE:
                    INDUSTRY AND LABOR PERSPECTIVES
                    ON TRAINING NEEDS AND CHALLENGES

                              ----------                              


                        MONDAY, OCTOBER 24, 2011

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                       Seattle, WA.
    The Subcommittee met, pursuant to notice, at 10:18 a.m., at 
William M. Allen Theater, Museum of Flight, 9404 East Marginal 
Way South, Seattle, Washington, Hon. Maria Cantwell, Chairman 
of the Subcommittee, presiding.

           STATEMENT OF DOUGLAS R. KING, PRESIDENT, 
                        MUSEUM OF FLIGHT

    Mr. King. Good morning, ladies and gentlemen. Thank you so 
much for coming this morning.
    My name is Doug King. I am the President of the Museum of 
Flight. And it really is an honor to welcome you to our 
building and to welcome our distinguished panelists, the 
Senator, and her staff from Washington, D.C., to look at the 
aerospace industry here in Washington State.
    You know, the Museum of Flight is honored to host this 
particular hearing for a couple of reasons. But I guess the 
main one is that most people think of us as a place that tells 
the story of the first century of flight.
    I hope you will get a chance while you are here to go out 
and look at some of the early ideas of flight and the gliders 
right outside the hall here and the aircraft that wrote that 
story so strongly here in the Northwest over the last 100 
years, and literally changed the way people think about where 
they live and people that you relate to on a daily basis, the 
place you can take vacation, where you can do business, how you 
see your families, who you talk to, how small the world is. All 
of that is a result of progress here in aviation.
    But just telling the history isn't nearly all that we do. 
We think it is equally important to be thinking about the next 
century of flight. We would like Seattle and the Washington 
area to play the same major role in the coming exciting things 
that we will see, as we have in the first 100 years.
    And so, exciting young people, making sure that they have 
the opportunity and the skills, the support that they need to 
think about aviation careers, that is the second major mission 
of the Museum of Flight. The people who will write that story 
are in classrooms around our region today. They are eager to 
work in the industry if we can get them excited.
    We look forward to partnering with those of you who are in 
the field of encouraging and educating, getting young people 
ready for industry and for all the kinds of jobs that are 
related to aviation. We hope that we will be able to tell their 
story as well in the coming years.
    So we hope you enjoy being here today. Please don't 
hesitate to ask any of us any questions about the museum, and 
enjoy your time here.
    Now it is my honor to introduce the panel or, excuse me, 
the hearing on ``The Aviation Workforce: Training Needs and 
Challenges.'' Senator Maria Cantwell.
    [Applause.]

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you.
    I want to call to order this field hearing of the Senate 
Commerce Committee's Subcommittee on Aviation Operations, 
Safety, and Security.
    And Doug, thank you very much for allowing us to be here 
today and for your ongoing work and focus on aviation education 
and the workforce of tomorrow.
    I want to thank our two panels of witnesses that are here 
today to talk about this very important subject, and I just 
want to thank Doug for being here and the museum for being so 
kind to host us. You know, this really is one of the finest 
museums in the country in its significant aircraft and 
spacecraft holdings. If you haven't had a chance to visit, 
please do so.
    And some of the exhibits are located in the red barn. The 
reason I mention that is the red barn is where Bill Boeing 
started the company on the Duwamish River nearly 100 years ago 
today--100 years ago--to build seaplanes. And it is this kind 
of aerospace leadership that today's discussion is all about--
how we continue that leadership.
    Because, literally, we are at a crossroads. We face a 
perfect storm in the demand for a skilled aerospace workforce. 
We have three dominant forces coming together at once.
    First, there is an increased demand for aerospace products. 
Boeing, obviously, over the next 20 years, will be producing 
more than 33,000 commercial aircraft at a market value of $4 
trillion.
    Second, we need to adapt to exciting new technologies that 
require workers to learn new skills, and these include things 
like composite manufacturing.
    And three, we need to be prepared to face a wave of 
projected retirements over the next decade. Here, in Washington 
State, the International Association of Machinists projects 
that 10,000 of its members will retire over the next decade.
    So this perfect storm means we need more skilled workers, 
and Washington needs to fill more than 21,000 new aerospace 
jobs over the next decade to meet employer demands. And this is 
according to the Washington State Council on Aerospace.
    Nationally, the broader aerospace industry has to hire 
about 32,000 workers just this year and 22,000 next year, 
according to Aviation Week workforce study analysis that was 
done in 2011.
    Today's Aviation Subcommittee hearing is about training our 
workforce and stepping up to that challenge, and it is about 
America's competitiveness in aviation manufacturing. This is a 
pivotal point for the competitiveness of America's aerospace 
industry.
    We are facing increasing competition on the global stage 
from Europe and Canada, China, Brazil, Russia, and other 
countries. And over the past decade, other countries have 
increased their investment in domestic aircraft manufacturing. 
This direct government investment has helped companies like 
Airbus challenge, obviously, the hard work that men and women 
are doing right here in Puget Sound.
    If the U.S. is going to remain the leader in global 
aviation markets, then we need to continue to close the skill 
gap. America needs thousands more skilled workers to fill 
aerospace opportunities. So we know that aerospace is a huge 
driver for our national economy, and it employs over 600,000 
Americans and accounts for over $2 billion in revenue, and 
general aviation manufacturing accounts for over 120,000 of 
those jobs.
    So we want to talk today about the aerospace industry from 
a perspective of our State and local community, with over 150 
different firms that are here and 650 in total that are part of 
the supply chain reaching all 28 counties in our state. And we 
want to talk about the forecast for the future and how that 
demand will mean that we have to educate more individuals to 
take advantage of this unique opportunity.
    Washingtonians want Boeing to build all of these planes--
the tanker, the 787, the 777, the 747, the 737, the 737 MAX--
right here in Washington State. But to do this, we need to 
continue to make sure this is the best place to build 
airplanes, and one aspect of that is to make sure that we have 
a workforce that is ready to perform.
    High production rates mean that we also have to have a 
supply base that can continue to be effective at hiring the 
right people and getting the productivity that we need. There 
are a number of common workforce issues facing the aviation 
industry and aerospace cluster, and we are going to talk about 
some of those today--an aging workforce, a challenge of current 
job openings and the skill gap that exists, how to make current 
training programs more responsive to the employers and what 
industry needs, how to get more students interested and trained 
in the occupations and trades necessary to support aerospace 
industry in their future needs, and how to increase the 
participation of women and underrepresented minorities in the 
area of the industry.
    So we are here today to lay out the successes that we have 
had in training and to highlight the strategies that we need to 
move forward. So I want to thank our panelists for being with 
us today. We will have two panels this morning.
    The first one more of a broader perspective by industry and 
academics, and the second by those involved in training the 
workforce in specific skills through a variety of education and 
training programs and representation from the employee side of 
what they view as the work skills and critical issues of the 
future.
    So I am going to turn to our first panel and again welcome 
them and thank them for participating in this. We are going to 
hear from Mr. Michael Green--let us see. Sorry. We are going to 
start with Mr. Hermanson, who is the Chair of the Department of 
Aeronautics and Astronautics at the University of Washington. 
He will be followed by Mr. Greenwood, who is the Aerospace 
Academic Alignment Team Senior Manager for the Boeing Company.
    Then followed by him will be Mr. Sieber, who is with GE 
Aviation and the Plant Leader there. And last, Randall Julin, 
who is with Absolute Aviation Services and General Manager of 
that company.
    So, again, thank you very much for being here, and Mr. 
Hermanson, we will start off with your testimony.

          STATEMENT OF JAMES HERMANSON, Ph.D., CHAIR,

          DEPARTMENT OF AERONAUTICS AND ASTRONAUTICS,

                    UNIVERSITY OF WASHINGTON

    Dr. Hermanson. Thank you very much.
    Good morning. Thank you, Senator. It is a pleasure to be 
here.
    I am Jim Hermanson from the University of Washington, and 
these are my remarks.
    The American aerospace industry understands the highly 
competitive international aviation environment of today, and 
that might be Boeing versus Airbus, GE versus Rolls-Royce, 
represented in part by the panelists here. This Subcommittee 
also clearly does understand this, and I am very happy to be 
here to share my perspectives on one key issue aspect of 
meeting this challenge, our engineering workforce. In 
particular, how we might work together to better meet the 
workforce needs of the aerospace industry in the United States.
    I would say that the issue of guaranteeing a strong force 
of skilled workers to fill the aerospace jobs of the future has 
at least two key aspects, quantity and quality. Let me address 
the issue of quantity first.
    Speaking from the standpoint of the Department of 
Aeronautics and Astronautics at the University of Washington, 
we are facing substantial challenges in expanding the size of 
our programs to meet the increasing demand for graduates 
trained in aerospace engineering. This is partly an issue of 
the infrastructure needed to accommodate the number of 
students.
    Many good students are being turned away from our program 
due to class size limits, which arise for that reason. Perhaps 
more critically, there is a need for more university faculty 
and staff if programs are to grow to meet the increasing demand 
for graduates.
    We are being severely strained by the economic downturn and 
budget austerity that this is forcing on the State of 
Washington. Budget cutbacks have forced, for example, 
significant staff layoffs, the cancellation of laboratory and 
other courses, and have severely restricted our ability to hire 
new faculty.
    Staffing issues directly impact program quality and, 
therefore, the quality of our graduates. We need to be able to 
hire and retain more top-quality faculty and support staff. Our 
graduate programs depend directly on the expertise and research 
opportunities afforded by working with top-caliber aerospace 
experts on cutting-edge research projects.
    Our undergraduate program also benefits from the teaching 
provided by world-class faculty experts in aerospace. To 
attract and retain these people, we need an environment that 
provides a solid research and educational infrastructure, as 
well as funding that supports their research and educational 
activities. The Federal Government has a clear ongoing role to 
play here through the funding of research, which is key to 
sustaining major universities, such as the UW, that seek to 
grow and graduate the necessary new aerospace engineers.
    I have sometimes heard with dismay a comment to the effect 
that aerospace is a mature technology and, therefore, not in 
any great need of research. I would like to emphatically state 
that this is not true.
    Although we can routinely and safely cross continents and 
oceans in high-capacity jetliners, carry out amazing and 
effective aviation military missions, there are serious 
challenges ahead for aerospace. These challenges include 
meeting increasingly stringent requirements for low noise and 
exhaust emissions, the extensive use of composites and other 
advanced materials, new strategies for aircraft controls to 
reduce critical airspace crowding and further increase fuel 
efficiency, and more.
    That aviation will remain a critical technology for both 
the American economy as well as its military is without 
question. In any case, the future of aviation and the 
institutions of higher education, which are the source of new 
engineers for the aerospace workforce, depend on a strong level 
of Federal support. The direct Federal support for students, 
whether it is in the form of students' grants, fellowships, or 
loans, also remains vital.
    Increasing the quality of aerospace graduates and their 
effectiveness in the workforce is not, however, simply an issue 
of State and Federal funding. To truly increase such quality, 
in my opinion, also calls for increasing collaboration between 
university and industry in the areas of education and research.
    There is already a significant degree of interaction 
between the two entities. For example, many of our students 
undertake co-ops and internships in industry, a clearly 
beneficial experience for the students and the host company 
alike. From the university side, I think we need to increase 
the amount of business-related training we offer to students to 
increase their effectiveness as they begin their careers in 
aerospace.
    I believe that Government can play a vital role in 
strengthening the connections between university and industry. 
As one example, some years ago, the National Science Foundation 
introduced the concept of broader impact into its engineering 
research proposal requirements. The expectation is that each 
product produce not only excellent science but contribute to 
society in other ways, such as by innovations in education, K 
through 12 outreach, or encouraging underrepresented 
minorities, which I would add is a major source of new talent 
for science and engineering.
    In the same spirit, perhaps similar expectations for 
similar industry involvement could be implemented, where 
appropriate, as part of federally sponsored research programs 
in science and engineering. One example of such a program is 
the NSF GOALI program, which directly promotes university-
industry partnerships.
    One challenge is that though a clear commitment to 
excellence in aerospace is common to both academia and 
industry, their missions are different. Fundamentally, the 
focus of an academic unit is on education, research, and 
training; that of industry on development, commercialization, 
and production. Forming effective partnerships, therefore, 
requires leadership and commitment from both industry and 
academia to work jointly to strengthen the education of our new 
aerospace professionals.
    To summarize, I would say that what is needed to strengthen 
the quality and quantity of new engineers entering the 
aerospace workforce is not merely to increase State and Federal 
funding of universities, though that is clearly important, but 
develop and implement mechanisms for greatly increasing the 
degree of academic-industry partnering in the United States.
    Thank you very much for giving me this opportunity to share 
my thoughts with all of you today.
    [The prepared statement of Dr. Hermanson follows:]

         Prepared Statement of James Hermanson, Ph.D., Chair, 
  Department of Aeronautics and Astronautics, University of Washington

    The U.S. competitiveness in Aerospace can no longer be taken for 
granted in the international aerospace market. There was a time, up to 
the early 1980s, when Boeing was widely recognized to be the world 
leader in commercial aviation, playing a dominant role in the aviation 
marketplace. By the 1990s it was clear that that picture had changed. 
Airbus was demonstrating that it could produce commercial airplanes 
which were extremely competitive in performance, quality, and cost-
effectiveness. Although the American aerospace industry understands 
that, I am not so certain that American society as a whole appreciates 
the full scope of the highly technical challenges we face as a nation. 
This Committee clearly does, and I am very happy to be here to share my 
perspectives on one key aspect of meeting these challenges: our 
engineering workforce, in particular, how we might work together to 
better meet the workforce needs of the aerospace industry in the United 
States.
    I would say that the issue of guaranteeing a strong force of 
skilled workers to fill the aerospace jobs of the future has at least 
two key aspects: quantity and quality. Let me address the issue of 
quantity first.
    Speaking from the standpoint of the Department of Aeronautics and 
Astronautics at the University of Washington, we are facing substantial 
challenges on the issue of expanding the size of our programs to meet 
the increasing demand for graduates trained in aerospace engineering. 
To an extent, this is an issue of the infrastructure and facilities 
needed to accommodate the number of students. Many good students are 
being turned away from our program due to class size limits which arise 
for these reasons. Perhaps more critically, there is a need for more 
university personnel if programs are to grow to meet the increasing 
demand for engineering graduates, thus more professors, instructors, 
and more support staff are required. The University is being severely 
strained by the economic downturn and the budget austerity that it is 
forcing on the government of the State of Washington. Budget cutbacks 
have forced, for example, significant staff layoffs, the cancellation 
of laboratory and other courses, and have severely restricted our 
ability to hire new faculty.
    These staffing challenges tie directly into the issue of program 
quality, which in turn directly impacts the quality of our graduates. 
The UW needs to be able to hire and retain top-quality faculty and 
support staff, given that the UW is a world-class, major research 
university. Our graduate programs, which produce master's and doctoral 
degrees in aerospace engineering, depend directly on the expertise and 
research opportunities afforded by working with top-caliber aerospace 
experts on cutting-edge aerospace research projects. Our undergraduate 
program in aeronautics and astronautics also benefits from the teaching 
provided by world-class faculty experts in aerospace. To attract, and 
retain, these experts we need an environment that provides a solid 
research and educational infrastructure, as well as funding 
possibilities that allow the faculty to successfully conduct their 
research and educational activities. The Federal Government has a 
clear, ongoing role to play here, through the funding of research. 
Ensuring robust Federal funding of research in engineering and science 
is key to sustaining major universities such as the UW. The success of 
universities is, in turn, essential for graduating the necessary new 
aerospace engineers.
    Regarding support for research in aerospace, I have sometimes 
heard, with dismay, a comment to the effect that aerospace is a 
``mature'' technology, and not in any great need of new research. I 
would like to emphatically state that this is not true. While it is 
true that we can routinely and safely cross continents and oceans in 
high-capacity jetliners, carry out amazing and effective aviation 
military missions, and successfully launch spacecraft into earth orbit 
and beyond, there are serious challenges ahead for aerospace in the 
coming decades. These include meeting increasingly stringent 
requirements for low noise and exhaust emissions, the extensive use of 
composites and other advanced materials, new strategies for aircraft 
controls to reduce critical airspace crowding and further increase fuel 
efficiency, and more. That aviation will remain a critical technology 
for both the American economy as well as its military is without 
question. In any case, the future of aviation, and of the institutions 
of higher education which are the source of new engineers for the 
aerospace workforce, depends on a strong level of Federal support. 
Furthermore, direct Federal support for students, whether it is in the 
form of student grants, fellowships, or loans, is also vitally 
important to this mission and must be continued, and strengthened.
    Increasing the quality of our aerospace graduates and their 
effectiveness in the workforce is not, however, simply an issue of 
state and Federal funding. To truly increase the effectiveness of new 
graduates entering the engineering workforce, in my opinion, calls for 
increasing collaboration between university and industry in the areas 
of education and research. There is already a significant degree of 
connection between the two entities. For example, many of our students 
undertake co-ops and internships in industry, a clearly beneficial 
experience for the students and the host company alike. From the 
university side, I think we need to increase the amount of business-
related training we offer to students to increase their effectiveness 
as they begin their careers in industry.
    I believe government can play a vital role in further increasing 
and strengthening the connections between university and industry. As 
one example, some years ago the National Science Foundation introduced 
a concept of ``broader impact'' into its engineering research proposal 
requirements. The expectation is that the funded projects result not 
only in excellent science, but contribute meaningfully to other aspects 
of intellectual activity, such as innovations in education, K-12 
outreach, and encouraging under-represented minorities (a major source 
of new talent for science and engineering)--all important and positive 
activities in aerospace engineering education. In the same spirit 
perhaps similar expectations for significant industry involvement could 
be implemented, where appropriate, as part of federally-sponsored 
research programs in science and engineering. One example of such a 
program is the NSF GOALI program, which directly promotes university-
industry partnerships. This kind of program should be strengthened and 
expanded.
    One challenge is that though a clear commitment to excellence in 
aerospace is common to both academia and industry, their missions are 
different. Fundamentally, the focus of an academic unit is on 
education, research, and training; that of industry, on development, 
commercialization, and production. Forming effective partnerships 
requires leadership and commitment from both industry and academia to 
work jointly to strengthen the education of our new aerospace 
professionals.
    To briefly summarize, I would say that what is needed to strengthen 
the quantity and quality of new engineers entering the aerospace 
workforce is not merely to increase state and Federal funding of 
universities, though that is clearly important, but to develop and 
implement mechanisms for greatly increasing the degree of academic-
industry partnering in the U.S.
    Thank you very much for giving me the opportunity to share my 
thoughts with you today.

    Senator Cantwell. Thank you, Mr. Hermanson.
    We will go now to Mr. Greenwood.

   STATEMENT OF MICHAEL GREENWOOD, SENIOR MANAGER, AEROSPACE 
          ACADEMIC ALIGNMENT TEAM, THE BOEING COMPANY

    Mr. Greenwood. Thank you.
    Good morning, Senator Cantwell. My name is Michael 
Greenwood. I am a Senior Manager with Boeing Company. I work 
within Boeing Commercial Airplanes Group, supporting training, 
integration, and workforce development.
    Thank you very much for the opportunity today to share my 
thoughts about the training needs of the aviation workforce. 
Today, I would like to highlight the workforce growth that we 
are experiencing at the Boeing Company and the strategies that 
we are using, that we are developing a pipeline of skilled 
workers for the future.
    This has been a tremendous year for the Boeing Company. In 
February, we won the intense competition to build the U.S. Air 
Force's next tanker. And just recently, we delivered two new 
airplane models, the 787 and the 747-8. None of this would have 
been possible without our talented workforce. It is clear that 
our people are our competitive advantage.
    This year alone, Boeing added more than 5,000 people to its 
workforce in our State, bringing the total workforce in 
Washington to over 80,000 employees.
    In order to continue to attract and retain the most 
talented and diverse workforce tomorrow, we need to inspire the 
next generation of youth today. Our mission is to excite 
today's youth about careers in aerospace and manufacturing well 
before they are ready to enter the workforce. We need to change 
the perception that aerospace and manufacturing jobs are dirty 
jobs or grimy jobs.
    The reality is that these are high-tech, challenging, 
fulfilling jobs that pay a family wage. These careers include 
engineers, technical support, and our aircraft assembly 
workforce.
    By engaging with students, teachers, guidance counselors, 
administrators, parents, and mentors, we are working to improve 
the perception of aerospace and manufacturing jobs here in 
Washington and across the Nation. To this end, we are working 
closely with our IAM labor partners at the IAM District 751 and 
also the Washington State Office of Superintendent for Public 
Instruction.
    We are visiting the 13 high school skills centers located 
across our state. We want to have our passionate and 
knowledgeable Boeing workers visit students and teachers in 
their classrooms. By allowing them to inspire our children in 
the classroom with hands-on projects, videos, and be guest 
speakers, we hope to ignite the excitement in Washington 
State's youth to pursue meaningful careers that will provide 
them with living-wage jobs for years to come.
    Partnerships with academia, labor, Government, and industry 
have been and will continue to be an integral piece in our 
strategy. I want to highlight some of our highly successful 
partnerships.
    First, the Center of Excellence for Aerospace and Advanced 
Materials Manufacturing. The Center of Excellence serves as a 
focal point, bringing together our community and technical 
colleges and our industry partners. This effort brings all of 
the stakeholders together in one place to define curriculum 
aligned to industry needs. This collaborative approach is 
critical to our continued success.
    Another example of our academic collaboration can be seen 
at the Washington Aerospace Training and Research Center. Just 
completing its first year, this industry-driven training 
program has quite an impact thus far. To date, the center has 
graduated over 400 students with certificates in aerospace 
disciplines. Almost 300 of those students have received job 
offers or are working for the Boeing Company or other suppliers 
today.
    The curriculum developed at the WATR Center is now being 
deployed at Renton Technical College, who just started their 
aerospace assembly mechanic certificate program in September. I 
personally visited the campus last Friday and met the students 
in the hands-on lab area. They were so excited about learning 
new skills that would prepare them for jobs in our industry.
    Multiple training programs at other colleges are underway, 
from Vancouver to Bellingham, across the state to Spokane and 
Yakima, providing students with the necessary skills to enter 
our workforce. Other benchmark programs that are making a 
difference, too, include AJAC, the Aerospace Joint 
Apprenticeship Committee, which provides our State citizens an 
opportunity to learn new skills through apprenticeship.
    As a graduate of a machining apprenticeship program, I can 
personally endorse the value these programs provide not only to 
the students, but to our industry's suppliers as well.
    Senator Cantwell, I want to make special note here of the 
unprecedented support we have received from the U.S. Department 
of Labor. Thank you, Senator Cantwell, for your help in 
securing the generous $20 million grant that will benefit 
aerospace training across our state.
    This grant will provide training to thousands of workers 
over the next 3 years. To support this investment, Boeing has 
partnered with our state's colleges to define critical skill 
areas that will be required in the next several years. These 
include advanced manufacturing and machining, aircraft 
assembly, airframe and power plant, composites, and 
electronics.
    Each of these focus areas will receive support from Boeing 
subject matter experts who will advise on the necessary skills 
for entry-level workers in those jobs. The schools will 
translate those skills into common curriculum that will be 
deployed across the state. This collaboration amongst colleges 
is unprecedented and ensures that the funding helps as many 
students as possible.
    In closing, as an industry, we have a lot of work ahead of 
us to develop the workforce that will sustain our growth into 
the future. The investments that we make today need to be the 
right investments that align the needs of the workers and the 
industry. With your continued support, we will work together to 
narrow the skills gap and put people to work.
    With that, I look forward to hearing the testimony from the 
rest of the panel, and I am happy to answer any questions that 
the committee may have.
    [The prepared statement of Mr. Greenwood follows:]

       Prepared Statement of Michael Greenwood, Senior Manager, 
         Aerospace Academic Alignment Team, The Boeing Company

    Good morning, Senator Cantwell, and members of the Subcommittee. My 
name is Michael Greenwood, Senior Manager for Boeing Commercial 
Aircraft Manufacturing and Quality supporting Training Integration and 
Workforce Development. Thank you very much for the opportunity today to 
share my thoughts about the training needs of the aviation workforce.
    We are all acutely aware of the state of the economy and 
unemployment in the United States and here in Washington State. Today I 
would like to highlight opportunities for workforce growth and 
sustainable job creation across the aviation industry and improvements 
that we at the Boeing Company are making in the education and training 
sectors to ensure that we have skilled people to fill future aviation 
jobs. Through collaborative partnerships with Federal, state and local 
governments; academia; labor and industry, The Boeing Company is 
focusing its efforts in developing a qualified and skilled workforce to 
ensure we remain the world leader in the aviation market--a market that 
is growing and becoming increasingly more competitive. I want to make 
special note here of the unprecedented support we have received from 
the U.S. Department of Labor through the grant it recently awarded to 
the Air Washington consortium in support of Aerospace workforce 
development in Washington State. Thank you, madam chair, for your 
assistance in securing this critical investment in our collective 
future. Our collaboration across sectors will ensure that these 
valuable resources are focused on the most efficient and sustainable 
programs supporting workforce development for the industry.
    I would like to focus on a few main actions that are vital to the 
continued success of the aviation workforce in the coming years. 
Collectively, we must:

  <bullet> Continue to invest in education and training programs to 
        support the technical skill set required for the aerospace 
        industry.

  <bullet> Connect academia with industry to define skills needed for 
        the jobs of tomorrow and develop short-term training programs 
        to ensure job seekers get into the workforce quickly.

  <bullet> Encourage and invest in experiential learning through shop 
        classes, vocational education, internships and apprenticeships.

  <bullet> Engage all demographics including students in our K-12 
        system, unemployed workers and veterans.

    These actions are imperative to our joint success in supporting a 
vibrant and well-prepared workforce for the aerospace and manufacturing 
industries in the United States.

Boeing is Growing and Creating Jobs
    As a company, Boeing is growing and hiring skilled talent. We will 
require knowledgeable workers from many trades to fill our workforce in 
the years to come. In Washington, Boeing jobs equate to jobs throughout 
the region; for every job that Boeing creates, it supports 3 additional 
jobs in the community.
    This year has marked many tremendous milestones for Boeing: in 
February we won the intense competition to build the KC-46--the U.S. 
Air Force's next tanker, in September we delivered the first 787 to Al 
Nippon Airways, and this month marked the first delivery of the new 
747-8 to Cargolux. These milestones alone do not ensure our success. If 
we cannot provide airplanes in the time frames required by our 
customers it is likely they will look to other manufacturers to satisfy 
their fleet needs So as the business grows, we must also increase our 
capacity by growing our workforce to create the products our customers 
demand.
    To keep up with market demand for single-aisle airplanes, the 737 
program will increase production to 42 airplanes per month by mid-2014. 
A 33 percent increase from the current rate of 31.5 airplanes per 
month. Over the next 2 years, Boeing will increase the production rate 
for each of its other commercial aircraft including the 747, 767, 777 
and 787.
    Boeing's highly skilled workforce is a key asset to developing and 
delivering the world's greatest aerospace products. Boeing employment 
levels continue to increase, fueled largely by the earlier mentioned 
strong demand for commercial airplanes. Boeing added more than 7,000 
people to its workforce in Washington State since the beginning of 
year. This brings our total workforce in Washington to over 80,000 
workers! It is clear that our people are our strategic advantage.

The Workforce of Tomorrow
    To attract and retain the most talented and diverse workforce of 
tomorrow, we need to inspire the next generation of youth today. Just 
as the race to the moon inspired the youth of generations past, our 
mission is to excite today's youth about careers in aerospace and 
manufacturing well before they are ready to enter the workforce. By 
engaging with students, teachers, guidance counselors, administrators, 
parents and mentors we are working to improve the perception of 
aerospace and manufacturing jobs in the United States.
    We need to change the perception that these are ``dirty jobs'' into 
one that reflects reality: that these are high-tech, challenging, 
fulfilling jobs that pay a family wage. We want to demonstrate that the 
aerospace industry is a place where students can apply their math and 
science skills in new ways that are fun and innovative, where veterans 
can apply the skills they learned in the field, and where people can 
make a meaningful career for themselves.
    In Washington State, we are engaging with Career Technical 
Educators responsible for vocational education in K-12 to build 
manufacturing career path programs which will provide students a 
defined course of study to prepare them for careers in Aerospace and 
Manufacturing. This year, we partnered with Yakima Valley Technical 
Skills Center to deploy a new aviation and manufacturing curriculum for 
11th and 12th grade students. The purpose of the YV Tech curriculum 
pilot is to develop the foundation for a long-term, sustainable 
aerospace and manufacturing curriculum and associated career pathways 
that meet the needs of students, industry, labor, and Washington State. 
This pilot will serve as the model for future skill center initiatives 
in Washington State. We plan to launch a similar program with the Sno-
Isle Tech Skills Center in Everett, Washington early next year.
    Partnering with the IAM and the Washington State Office of the 
Superintendent for Public Instruction, we are scheduling visits to K-12 
classrooms, shop classes, skill centers and career guidance counselors. 
We want to get our passionate and knowledgeable workers into the 
classroom to show young people the benefits of an aerospace and 
manufacturing career. With hands-on projects, videos and guest speakers 
we hope to ignite the excitement and unleash the passion in Washington 
State's youth to pursue exciting careers that will provide them with 
living wage jobs for years to come and become the aerospace and 
manufacturing workforce for our future as a nation.

Collaborative Partnerships
    Partnerships with K-12 education, higher education institutions, 
labor unions, government and industry have been, and will continue to 
be, an integral piece in our strategy for developing a strong pipeline 
of workers for aerospace and manufacturing jobs.
    Workforce development, in support of a growing aerospace workforce, 
is one area where Boeing and our labor partners are clearly aligned. 
Boeing and the International Association of Machinists and Aerospace 
Workers (IAM) District Lodge 751 are working jointly on workforce 
development in Washington State. Together we are partnering in the 
public sector, concentrating on outreach activities geared toward the 
K-12 classroom. By sharing our passion for our industry with the youth 
of the region, our goal is to ignite excitement about manufacturing and 
aerospace, and to encourage our young people to consider careers in 
these fields.
    We have a strong alliance with the Washington State Board for 
Community and Technical Colleges, both collectively and with individual 
colleges. Two examples of industry collaboration are worth mentioning.
    First, the Washington Aerospace Training and Research Center, or 
WATR Center. At the WATR Center, industry and academia are 
collaborating to provide students with the skills our industry demands. 
Just completing its first year of operation, this industry-driven 
training program has developed an impressive track record. To date the 
WATR Center has graduated 442 students with certificates in aerospace 
related disciplines. Of those graduates, 414 have applied to Boeing, 
371 have received interviews and 258 have offers or have already 
started. This is a hugely successful program that demonstrates a direct 
benefit to the students as well as to Boeing.
    Second, the Center of Excellence (CoE) for Aerospace and Advanced 
Materials Manufacturing. The CoE serves as a focal point, bringing 
together community and technical colleges, local business and industry 
partners in the fields of aerospace and advanced materials 
manufacturing. This effort ensures the efficient use of state resources 
for workforce development, bringing all of the stakeholders together at 
one table to identify curricula aligned to manufacturing job skills. 
This industry-driven approach to skills definition and training is 
imperative to our continued success.
    In partnership with CoE, Boeing has conducted workshops targeting 
critical hourly job codes for Composites, Electrical, Machining and 
Assembly Mechanic. These workshops included Boeing subject matter 
experts that represented the skill needs for Boeing along with the 
participation of many local Community and Technical College. As a 
result, curriculum has been identified and developed to support the 
critical skill needs above with local Washington State Community and 
Technical Colleges.

Air Washington
    Thank you Senator Cantwell for your help in supporting the generous 
$20 million dollar Department of Labor grant that will benefit 
aerospace training in the State of Washington. We support the grant 
proposal from Air Washington, a consortium of community and technical 
colleges and aerospace training organizations across the state that 
will benefit from this grant. This funding is a catalyst for the 
creation of short-term training programs to support the training of 
2,600 workers over a three year period. The training capacity that this 
grant will create will be a benefit for Boeing as well as for our 
suppliers and other industry partners in the region.
    Boeing has partnered with Air Washington and our state's community 
colleges to define critical skills that will be required in the next 5-
10 years. The consortium will be focusing its efforts in five skill 
areas critical to aerospace and manufacturing in Washington State: 
Advanced Manufacturing, Aircraft Assembly, Airframe and Powerplant 
(A&P), Composites and Electronics. Each of these focus areas will 
receive support from Boeing subject-matter experts who will advise on 
the required skills necessary for entry-level workers in those jobs. 
Leaders for each program will translate those skills into a common 
curriculum that will be deployed across the colleges for all aerospace 
and advanced manufacturing courses. In addition, Boeing, as an industry 
advisor, will continue to play a role to the consortium schools. We 
will continue to work internally with our employment teams to elevate 
awareness of these programs.

Closing
    As a company and as an industry we have a lot of work ahead of us 
to develop the workforce that will sustain our growth into the future. 
Boeing will continue to work collaboratively across institutional 
boundaries to encourage people of all backgrounds, ages and 
demographics to join us in an exciting career in aerospace and 
manufacturing. I see a bright future for the aviation industry in the 
United States, and with your continued support we will work together to 
narrow the skills gap and put people to work.
    Thank you for your interest in securing the future of the aerospace 
workforce. I look forward to hearing the testimony from the rest of the 
panel and I am happy to answer any questions that the Committee may 
have.

    Senator Cantwell. Thank you, Mr. Greenwood.
    And now we will go to Mr. Sieber, correct? And thank you 
for being here.

            STATEMENT OF MARK SIEBER, PLANT LEADER, 
                      GE AVIATION--YAKIMA

    Mr. Sieber. Senator Cantwell, my name is Mark Sieber, and I 
am the Plant Leader for GE Aviation's Yakima, Washington, site.
    Thank you for inviting me to speak about the growing need 
to develop a well-trained aviation workforce.
    GE's history of powering the world's aircraft features more 
than 90 years of innovation. Not just limited to aircraft 
engines, GE Aviation Systems business is a leading global 
provider of electrical power systems, avionics, actuation and 
landing gear, aerostructures, and propeller systems.
    The Yakima plant was founded in 1921 by two brothers making 
irrigation and coal furnace equipment. Our transition to 
aerospace started in 1941, when Boeing recognized that our 
manufacturing capabilities could be used to produce parts for 
the B-17. In the decades that followed, the aerospace industry 
grew, and the Yakima facility expanded.
    By the late 1960s, the facility had its own design 
engineering capability, and we started developing our niche in 
locking actuators. In 2007, the Yakima plant became part of the 
GE Aviation family and part of GE Aviation Systems business 
unit. Products currently manufactured at Yakima include hold-
back bars used to launch aircraft like F-18 from aircraft 
carriers, hydraulic fuses used to protect aircraft control 
systems, and actuators used for landing gear.
    Our Yakima plant provides 270 high-tech aerospace 
manufacturing and engineering jobs, with a payroll in excess of 
$14 million. We are also proud to serve in our community. Last 
year, our employees logged more than 1,600 hours in community 
events.
    We are fortunate to have technology, products, and services 
that are in demand. Contracts on new programs are helping us 
grow, and having access to a well-trained, educated workforce 
is critical to our continued growth.
    The work we do in Yakima is specialized and technical. It 
can be difficult finding the expertise we need. So we invest 
heavily in training our employees. An incoming employee's 
background can vary anywhere from zero to hundreds of hours of 
actual experience. The amount of training required varies by 
position and level of skill.
    Most of our engineers join us right out of college or from 
other aerospace companies. The majority of our manufacturing 
employees come to us from our local community. The Yakima site 
has historically struggled to fill positions for aerospace 
engineers and technicians, which are skill sets not common to 
central Washington. So we incur higher costs for recruiting 
outside the region and outside of the State.
    We have found that using a teaming approach helps increase 
worker productivity. Teaming is one of GE Aviation's key 
initiatives to drive increased involvement, development, and 
empowerment of employees. We experience greater creativity, 
improved work processes, and increased plant performance when 
we maximize the diverse talents of our employees and increase 
their involvement in problem-solving and decisionmaking.
    We are fortunate to have a great educational institution 
nearby, such as Perry Technical Institute and Yakima Valley 
Community College. Perry Tech is a 2-year machine technology 
program that prepares students for entry-level positions making 
machine products.
    We participate in their program advisory committee by 
providing feedback on the skills we need, and this feedback 
provides guidance on the program's curriculum. Summer interns 
and students in our leadership programs provide an excellent 
pipeline for talent, and this is an area where we rely heavily 
on our partnerships with colleges and universities. We 
anticipate having 15 interns in Yakima this summer, and 6 
additional students in our operations management leadership 
program.
    We are proud to be a part of the GE Aviation family, which 
believes strongly in science, technology, engineering, and 
mathematics education; training employees; and developing a 
strong workforce. As a leader in technology and innovation, we 
strongly value the need for tomorrow's leaders to be equipped 
with skills for the 21st century, such as an ability to think 
critically and solve complex problems. These skills are 
predominantly developed in the mathematics and science 
disciplines.
    GE invests more than $1 billion annually in training and 
development programs, helping our employees have a greater 
impact in our business and community.
    In closing, aviation continues to be a growth industry. But 
in order to remain competitive and strong, we need a well-
trained workforce. Continued investment for STEM education and 
employee training is necessary to help us fill the gap.
    I thank the Committee for its time and would be happy to 
answer any questions later.
    [The prepared statement of Mr. Sieber follows:]

  Prepared Statement of Mark Sieber, Plant Leader, GE Aviation--Yakima
      Closing the Gap: The Need for Worker Training and Education

    Chairman Cantwell, Ranking Member Thune, and members of the 
Committee, my name is Mark Sieber, and I am the Plant Leader for GE 
Aviation's Yakima, Washington site. Thank you for inviting me to speak 
about the growing need to develop a well-trained aviation workforce.
    GE's history of powering the world's aircraft features more than 90 
years of innovation, from the turbo supercharger to the world's most 
powerful commercial jet engine. Our innovation is not limited to 
aircraft engines; GE Aviation's Systems business is a leading global 
provider of electrical power systems, avionics, actuation and landing 
gear, aerostructures and propeller systems. GE Aviation's technological 
excellence, supported by continuing substantial investments in research 
and development, has been the foundation for growth, and helps to 
ensure quality products for customers.

Yakima's Proud History
    The Yakima plant was founded in 1921 by two brothers making 
irrigation and coal furnace equipment, products that served needs of 
the region's agriculture industry. Our transition to aerospace started 
in 1941 when Boeing recognized that our manufacturing capabilities 
could be used to produce valves and mechanisms for the B-17. In the 
decades that followed, the aerospace industry grew and the Yakima 
facility expanded manufacturing capacity. By the late 60s, the facility 
had its own design engineering capability and we started developing our 
niche in locking actuators. Yakima-based engineers developed locking 
actuator technology that provided the right solutions to our customer's 
needs, and we continue to evolve those solutions to use in today's 
applications. In 2007, the Yakima plant became part of the GE Aviation 
family, and currently part of GE Aviation's Systems business unit, 
which designs and sells avionics, electrical power, and mechanical 
systems for commercial and military aircraft. Products currently 
manufactured at Yakima include holdback bars used to launch aircraft 
like F18 from aircraft carriers; hydraulic fuses used to protect 
aircraft control systems on the Boeing 737, 747, and 777; and actuators 
used for landing gear on the V22, A380 and 787.
    Our Yakima plant currently provides 270 high tech aerospace 
manufacturing and engineering jobs, with payroll in excess of $14 
million to central Washington economy. High tech manufacturing is not 
common for this region of the state, and we take pride in what we've 
built in this community. We are also proud to serve in our community. 
Last year, our employees logged more than 1,600 hours in events such as 
United Way's Day of Caring, Operation Harvest community food drive, 
March for Babies, Yakima Greenway beautification activities, and 
construction of a new playground at Kiwanis Park.
    We are fortunate to have technology, products, and services that 
are in demand. Contracts on new programs like the 787 are helping us 
grow. Having access to a well-trained, educated workforce is critical 
to our continued growth.

Training is Essential for Our Employees
    The work we do in Yakima is specialized and technical. It can be 
difficult finding someone who arrives with the expertise we need, so we 
must invest heavily in training our employees. An incoming employee's 
background can vary anywhere from 0 to more than 100 hours of actual 
experience, so the amount of training that is required varies by 
position and level of skill coming in the door.
    Most of our engineers join us right out of college or from other 
aerospace companies. The majority of our manufacturing employees come 
to us from our local community population, where some of our hiring 
decision is based on their mechanical aptitude and if they are 
trainable for machinist and assembly positions.

Finding Qualified Workers Can Be Difficult
    The Yakima site has historically struggled to fill positions for 
qualified, experienced aerospace engineers and technicians, which are 
skillsets that are not common to central Washington. Winning the 
contracts for A380 in 2002, and 787 in 2004, drove requirement to 
expand our engineering and manufacturing capacity . . . more than the 
handful we could recruit locally. We incur a higher cost for recruiting 
outside the region, and outside the state.

Teaming Increases Productivity
    We have found that using a teaming approach helps to increase 
worker productivity. Teaming is one of GE Aviation's key initiatives to 
drive increased involvement, development and empowerment of employees. 
Within our teams, we experience greater creativity, improved work 
processes and increased plant performance when we maximize the diverse 
talents of our employees and increase their involvement in problem 
solving and decision-making. Yakima currently has nearly 40 percent of 
our workforce organized in high-performance teams and we continue to 
move in this direction with all employees.
    As a global company, our talent must reflect the communities we 
serve and with whom we do business. We are actively engaged in various 
outreach efforts, some of which include the City of Yakima's Worksource 
job fair, South East Community Center's 100 jobs for 100 kids' summer 
program, and the New Vision Yakima county development association.
    Our diversity within GE is about the power of the mix--the strength 
that results from an internal and external team with varied 
experiences, backgrounds and styles.

University Partnerships Are Key
    We are fortunate to have great educational institutions nearby, 
such as Perry Technical Institute and Yakima Valley Community College.
    Perry Technical Institute has a two-year Machine Technology program 
that prepares students for entry-level positions making machined 
products. We participate in their Program Advisory Committee by 
providing feedback on the skills we need and this feedback provides 
guidance on the program's curriculum.
    Summer interns and students in our leadership programs provide an 
excellent pipeline for talent and this is an area where we rely heavily 
on our partnerships with colleges and universities. We anticipate 
having 15 interns in Yakima this summer and six additional students in 
our Operations Management Leadership Program (OMLP's).
    Central Washington University, Washington State University and 
Montana State University are also strong proponents of ours who help 
provide talented interns and engineering candidates.

GE Aviation's Commitment to STEM Education and Workforce Training
    We are proud to be a part of the GE Aviation family, which believes 
strongly in Science, Technology, Engineering, and Mathematics (STEM) 
education, training its employees, and developing a strong workforce. 
As a leader in technology and innovation, we strongly value the need 
for tomorrow's leaders to be equipped with skills for the 21st century, 
such as an ability to think critically and solve complex problems 
creatively and collaboratively. These skills are predominately 
developed in the mathematics and science disciplines.
    Regarding training, GE is investing more than $1 billion annually 
in our training and development programs, helping our employees to have 
a greater impact in our businesses and community.
    In closing, aviation continues to be a growth industry, but in 
order to remain competitive and strong we need a well trained 
workforce. Continued investment for STEM education and employee 
training is necessary to help us fill the gap.
    I thank the Committee for its time and would be happy to answer any 
questions.

    Senator Cantwell. Thank you, Mr. Sieber, and we will get to 
that in a minute.
    But, Mr. Julin, you are our last speaker on this panel. 
Thank you for being here. We appreciate it. Look forward to 
your testimony.

STATEMENT OF RANDALL JULIN, GENERAL MANAGER, ABSOLUTE AVIATION 
                         SERVICES, INC.

    Mr. Julin. Thank you for inviting us.
    Senator Cantwell. You may need to pull that microphone a 
little closer, too.
    Mr. Julin. Thank you, Senator Cantwell. Is it----
    My message is similar to what we have heard across the 
panel----
    Senator Cantwell. Why don't you just try to pull it a 
little bit closer, or maybe it is the next microphone?
    Mr. Julin. Maybe it is not on.
    Senator Cantwell. Next to you.
    Mr. Julin. Hello?
    Senator Cantwell. Yes.
    Mr. Julin. Yes. My message is very similar to what we have 
already heard. I am the General Manager of Absolute Aviation 
Services. We are a small veteran-owned business on the east 
side of the state.
    I represent also not just myself, but probably 60-plus 
companies on the east side of the State that are in the 
aerospace business. Yes, there is aerospace in eastern 
Washington.
    It has been stated, but just to reiterate, the significant 
shortfall of trained aerospace workers that is projected over 
the next decade, the shortfall has already begun. An example is 
the recent hiring of almost 6,000 workers at Boeing, creating a 
domino effect in the industry. These workers, in many 
instances, are hired from other aerospace companies in the 
area, who must then backfill those positions.
    This is in addition to those workers needed to support the 
aerospace companies to accommodate the increased production 
rates. Being able to fill these positions with trained workers 
is not only important to Washington State, but also to our 
national interests.
    Although the shortage of engineers is well documented, as 
Mr. Hermanson has indicated, my personal experience at Absolute 
Aviation and also input from other Washington-based companies 
indicate that the workforce requirements ratio for technicians, 
mechanics, machinists--2-year program students--to engineers, 
basically a 4-year degree, is roughly 7 to 1, respectively, and 
sometimes higher, depending on the industry.
    More than 60 percent of the high school students currently 
do not go on to college directly from high school. We need to 
focus our recruiting efforts on this group.
    Although these students may not be immediate candidates for 
a 4-year engineering degree, they are prime candidates for 2-
year associate degrees or certificate programs. We cannot 
afford to marginalize or discount the innate talents and 
potential of this group of students.
    So, what do we need to do? We need to motivate and inspire 
these students early on, at the junior high and high school 
level, to pursue careers in aerospace. But how do we do that? I 
mean, one important way to do that is to show the relevancy of 
science, technology, engineering, and math, a STEM education, 
with practical, real world examples of its application.
    One of the programs that I have seen successful on the east 
side is Teach the Teachers program, where we bring teachers 
into the business, maybe 20, 25 teachers at a time. And we 
actually let them do hands on so that they can connect and 
understand what we are doing in industry.
    They take that message back to the classroom. That provides 
some inspiration. I have seen that program work.
    High school job fairs, where we are actually out there 
interfacing, talking to the students. High school skills 
centers. We have lost, it seems like, in high school--I grew up 
with shop classes. You don't see that much anymore. But the 
skills centers is one avenue, and I think a cost-effective one, 
to connect high school students to those jobs and skills that 
would be more associated with the community college system.
    Aviation High School, which we are going to hear about a 
little bit later. I think it is great. I am not sure we have 
the number of students on the east side to do something like 
that now, but that is a great program.
    It is important that it be industry driven, that the 
education--and it is up to us as industry leaders to ensure 
that what is being taught is what we need. I am seeing a lot of 
enthusiasm and efforts from the educators and academia to 
engage with industry, I think, and that is absolutely critical.
    You have got the Washington Aerospace Training and Research 
Center; Inland Northwest Aerospace Technology Center, which is 
being built; aerospace program equipment grants; and also the 
community college centers of excellence. And the next panel, I 
think, will talk some more on that.
    Industry must be actively engaged in the design of 
aerospace training facilities, equipment purchases, and 
curriculum development and implementation. I have got a list of 
things that are--where industry can get involved. Community 
college advisory boards, involved in the technology centers and 
their curriculum, as Mr. Greenwood has indicated with Boeing 
actively involved in that.
    Apprenticeship programs, which will be discussed by Laura 
Hopkins a little bit later. The FAA Centers of Excellence. One 
thing that I would like to see is that I would like to see 
industry connect with academia, with the educational system to 
be able to offer some of the state-of-the-art equipment, access 
to state-of-the-art equipment maybe on a second or third shift. 
I haven't seen really that initiative at this point, but I 
think that that is a way that--a very cost-effective way, maybe 
on a third shift where it is not being utilized, that we get 
students in to train on the equipment that is absolutely state-
of-the-art.
    In conclusion, I think that, you know, as I indicated, 
although it would be wonderful if all of our high school 
students were bound for a 4-year college to become engineers 
and scientists, that is not reality. We need to convince 
students, teachers, and parents that a 2-year degree is 
respectable and can lead to family wage jobs and a fulfilling 
career, as Mr. Greenwood has indicated.
    Through industry and Government partnerships, we need to 
recruit and train our next generation of aerospace workers. To 
do that, we must increase support for aerospace and aviation-
related education programs and institutions by providing 
coordination at the local, State, and Federal level; funding 
current programs; and finding and implementing best practices. 
We need to go across the State and the country to find out what 
is working.
    We can develop State-wide and national synergies to meet 
our current and future aerospace workforce needs.
    Thank you.
    [The prepared statement of Mr. Julin follows:]

         Prepared Statement of Randall Julin, General Manager, 
                    Absolute Aviation Services, Inc.

Challenges
    A significant shortfall of trained aerospace workers is projected 
over the next decade, both in Washington State and nationally. This 
shortfall has already begun. As an example, the recent hiring of 6,000 
workers at Boeing creates a domino effect on the industry. These 
workers, in many instances, are hired from other aerospace companies in 
the area, who must then backfill those positions. This is in addition 
to those workers needed by the supporting aerospace companies to 
accommodate the increased production rates. Being able to fill these 
positions with trained workers is not only important to Washington 
State, but is also in our national interests.
    Although the shortage of engineers is well documented, my personal 
experience at Absolute Aviation Services and also input from other 
Washington-based companies indicates that the workforce requirements 
ratio for technicians/mechanics/machinists (2 year degrees) to 
engineers (4 year degrees) is roughly 7 to 1 (respectively) or higher 
depending on the industry.
    More than 60 percent of High School students currently do not go on 
to college directly from High School. We need to focus our recruiting 
efforts on this group. Although these students may not be immediate 
candidates for a 4 year engineering degree, they are prime candidates 
for 2 year Associate Degrees or certificate programs. We cannot afford 
to marginalize or discount the innate talents and potential of this 
group of students.
Student Outreach
    Motivate and inspire students in Junior High and High School to 
pursue a career in Aerospace.
    Show relevancy of Science, Technology, Engineering, and Math (STEM) 
education with practical real world examples of its application
    Examples in Washington State:

        Teach the Teachers

        High School Job Fairs

        High School Skills Centers focusing on aerospace manufacturing 
        technologies, e.g., machining, welding, plating, non-
        destructive testing (NDT), computer programming, electronics, 
        etc.

        Aviation High School--Des Moines, WA
Technical Training Facilities
    Industry driven state-of-the-art Technical Training facilities are 
required to prepare students for Aerospace employment.
    Examples in Washington State:

        Washington Aerospace Training and Research Center--Everett, WA

        Inland Northwest Aerospace Technology Center (in work)--
        Spokane, WA

        Aerospace Program Equipment Grants to Community Colleges

        Community College Centers of Excellence for Aerospace, 
        Technology, and Manufacturing--Edmonds and Everett Community 
        Colleges
Industry/Government Partnerships
    Industry must be actively engaged in the design of aerospace 
training facilities, equipment purchases, and curriculum development 
and implementation:

        Community College Advisory Boards

        Aerospace Technology Centers and their curriculum

        Apprenticeship Programs--Mobile Training Center

        Government/Educational System partnerships for Research and 
        Development--University of Washington (Washington Technology 
        Center) and Washington State University (Applied Sciences Lab)

        FAA Centers of Excellence--Joint Center for Advanced Material 
        Research at the University of Washington (UW)

        Department of Agriculture grants to the University of 
        Washington and Washington State University for aviation bio-
        fuel research

        Need to develop new programs in which modern/state-of-the-art 
        equipment currently being used by industry is made accessible 
        for hands-on training to Community Colleges and Technical 
        Centers

Conclusions
    Future aerospace workforce shortfalls are well documented. In order 
to meet those needs, we must not miss an opportunity to connect with 
the majority of High School students who will not continue their 
education after High School unless we intercede to raise the visibility 
of and actively promote aerospace careers. By connecting with these 
students early, we can motivate them to continue their education, 
whether it is a 2 year technical degree or a 4 year engineering degree. 
Although it would be wonderful if all of our High School students were 
bound to attend a 4 year college and become engineers and scientists, 
that is not reality. We must convince students, teachers, and parents 
that a 2 year degree is respectable and can lead to a family wage job 
and a fulfilling career.
    Through Industry and Government partnerships, we need to recruit 
and train our next generation of aerospace workers. To do that we must 
increase support for aerospace and aviation related education programs 
and institutions. By providing coordination at the local, state, and 
Federal level, funding current programs, and finding and implementing 
best practices, we can develop statewide and national synergies to meet 
our current and future aerospace workforce needs.

    Senator Cantwell. Well, thank you, Mr. Julin.
    And again, we are here today, obviously, to talk about how 
the United States keeps its competitive edge in aerospace 
manufacturing. And there is no better place to come to, to talk 
about that than right here in Seattle because we are a leader 
in aerospace manufacturing.
    I think the panelists have outlined some of the challenges 
that we face, the fact that we are facing a shortage of the 
skill level that we need to continue to meet the demand. And 
obviously, we are going to hear from the second panel about how 
we have a great number of employees who are going to be 
retiring in the next 10 years that is going to make this 
challenging for us.
    So I wanted to start with you, Mr. Greenwood. You mentioned 
in your testimony that the workforce or you said people are 
really one of our competitive advantages. I wonder if you could 
expound on that because I think a lot of people in this room 
think that the workforce is our competitive advantage, and 
obviously, that we have seen competition come from lots of 
different places.
    Could you describe what you mean by that and how we could 
continue to use that as a way to keep manufacturing jobs not 
just here, but in the United States in general?
    Mr. Greenwood. Sure.
    Senator Cantwell. And you might have to pull that 
microphone closer to you.
    Mr. Greenwood. Yes. Thank you.
    A couple of comments. One is that here in the State of 
Washington, we have 80,000 employees or more that work for the 
Boeing Company, and they certainly come to work every day with 
the technical skills needed to design, engineer, and build the 
world's greatest aircraft. And those technical skills are 
certainly important as we move into the future, continuing to 
build the workforce for tomorrow.
    I did want to just touch a little bit on one point, and 
that is, is that while those technical skills are certainly 
important--and we heard that here from the panel this morning--
so are the interpersonal skills, the ability to work 
collaboratively in a teaming environment. And I think we heard 
a couple of panelists talk about the ability to solve complex 
problems in the work area. That happens today with our 
workforce here in Washington at our Boeing facilities and 
across the Nation and around the world.
    So as we move forward and build that workforce for 
tomorrow, it is important to continue that and that when we 
build those technical capabilities, we also remember that the 
interpersonal skills of the workforce, the ability to work in a 
very complex environment is just as important.
    Senator Cantwell. Do you think we have a competitive 
advantage today on the skill level of our workforce in the U.S. 
over other countries?
    Mr. Greenwood. I would say yes, and I would say the 
challenge is, as we have all talked this morning, to continue 
that. There are some challenges that need to be addressed.
    Senator Cantwell. One of the things, Mr. Hermanson, you 
talked about is how industry and academia have to work closer 
together on solving some of those challenges or issues. And you 
mentioned NSF GOALI program. Could you elaborate on what kind 
of collaboration would help us?
    Dr. Hermanson. Well, I think there are a number of things. 
And first, if I might digress a minute and follow up on 
Michael's comment? Strengthening the students' perceptions and 
their experiences in teamwork and people skills is absolutely 
vital, and we stress that throughout our program.
    We have a very intensive project-based component where the 
students learn early on in their junior year and again in their 
senior year to conduct projects, many of these in direct 
collaboration with Boeing and other industries, to form that 
teaming environment, to do their project reporting, to meet 
their objectives, to meet their schedule. And the key 
importance of interacting with other professionals is 
emphasized.
    The GOALI program is one program NSF has to encourage--from 
that program's standpoint, it is more directed at encouraging 
academicians to spend some time in industry, as part of that 
program, which I think is valuable. What I am saying is I think 
beyond that, it would be good to more broadly encourage 
industry to engage with universities in research programs, in 
education programs, along the lines that we have heard here.
    How can we get more students out into industry as part of 
their education, as part of internships? If it is something 
after hours or whatever, get them exposed to the equipment and 
technology. How can we get more industrial experience and 
exposure to our projects and more involvement from local 
companies in working with the students as part of their formal 
projects?
    And then, beyond that, what can we do to strengthen the 
connection between industry and academia in the area of 
research? Can we carry out more joint programs? How can that be 
encouraged so we can formulate a research portfolio at the 
university, for example, that connects strongly with Boeing and 
GE and other aerospace leading companies to conduct research 
that advances the state-of-the-art, gives our students the 
cutting-edge experience, and also addresses practical 
industrial problems?
    As I said in my statement, the challenge there is sometimes 
industry wants different things. Their focus is more on 
development and product and having prototypes and deliverables. 
Our focus is more on education. But there are ways that both 
can be worked in the context of trying new programs so we get 
the basic research and an exploratory development and also get 
real connection with industrial problems.
    Senator Cantwell. Are not composites a clear example of 
this? Where the AMTAS Center worked with industry on what 
needed to be done--the research behind composites?
    Dr. Hermanson. I think that is a stellar example. And the 
FAA is involved, of course. So you have a triangle between 
Federal agencies, you know, through the Department of 
Transportation, FAA, helping guide the overall scope of the 
program; extensive industrial involvement; and then university 
involvement for the research end. So those sorts of programs, I 
think they are terrific and absolutely should be encouraged.
    Senator Cantwell. Mr. Julin, you mentioned the ability to 
have young people actually take advantage of some of the 
equipment, state-of-the-art machines. You are part of our 
larger supply chain and serve a variety of end customers.
    I am assuming that as Boeing continues to hire out, part of 
your challenge and Mr. Sieber's challenge is maintaining the 
workforce that you have, that they are an attractive source of 
employees. As Boeing hires to fill their needs, oftentimes, you 
might be left with having to then fill the new vacancies 
created. Is that true? Is that a challenge?
    Mr. Julin. Certainly, that is a challenge. And I think it 
all goes back to where we get our students from and getting 
students into aerospace and aviation at an early point in their 
time. An early time meaning junior high and high school, and 
that is the inspiration that we need to foster at that early 
age.
    And because, basically, in the supply chain, we end up 
doing a lot of the training for the Boeing Company. And that is 
understandable. We know how the process works. On the eastern 
side of the State, we are not as dependent on the Boeing 
Company, but there is a lot of aerospace that is going on on 
the eastern side.
    It was mentioned that the partnership between the 
universities and business, and I think that there are a couple 
examples. The Washington Technology Center is one. I personally 
have been able to use what they call the ``Applied Sciences 
Lab'' at Washington State University. So that a small business 
can access what the universities have in terms of equipment. 
They have got the scientists and the engineers there. And we 
are able to tap into that from a small business standpoint, 
very reasonably priced, and we need to foster more of those 
kinds of relationships.
    But some of it is just industry knowing that it is 
available. I think that is a lot of the problem. It is a matter 
of publicizing and making it known to industry that these 
resources are out there and they can be accessed.
    Senator Cantwell. Mr. Sieber, did you want to comment on 
that, on how the production rates at Boeing sometimes make it 
challenging for part of the supply chain to then keep a skilled 
workforce?
    Mr. Sieber. Definitely, as there is a rapid increase, it 
puts pressure on us to try to find qualified people quickly to 
fill the positions. I will say that I actually think some of 
the mix between our company and Boeing, people moving back and 
forth, is actually healthy. That we have definitely seen people 
come to us from Boeing that have shared ideas, and I am certain 
that we have had people that have gone from GE to Boeing that 
have shared ideas.
    And I actually think that adds to the strength of our U.S. 
aviation industry, the ability to have a certain amount of 
movement of people and the sharing of best practices within 
that.
    The comment on the increased production rate, as I 
mentioned in my comments, the ability to find and hire people 
definitely puts pressure on us. And we reach out to pretty 
significant distances to find people and bring them into the 
region. Engineers certainly through the universities, but also 
skilled machinists and that type of trade.
    So I think it is important to continue to encourage 
children, especially in the high school before they get into 
the thoughts of college. Not every high school student has the 
interest to become an engineer. But I think we do need to 
reinforce that some of the skilled trades offer a wonderful 
career with a lot of challenges and the abilities to 
collaborate together and contribute to our aerospace industry.
    Senator Cantwell. All of you mentioned the apprentice 
programs, in addition to engineering programs generally. I know 
that part of the Department of Labor grant was for, I think, 
five different certificates. Do we have an ongoing process of 
identifying or shifting the skills within various certificate 
areas? Or do we know what is going to be for the next 20 years, 
and we can really go to town on how to match up not just this 
certificate program, but at the K through 12 level of 
encouraging students to be interested?
    I don't know who wants to talk about that.
    Mr. Sieber. I will jump in on it. I mean, the----
    Senator Cantwell. I mean, I heard a story as we were 
touring South Seattle Community College on this the other day, 
and someone mentioned that we might be falling behind as it 
relates to Europe on some of the qualifications standards for 
certificates just because the FAA needs to also modernize its 
requirements. That some of the manufacturing being taught was 
still done with wood when we need to move toward composites and 
that they have been able to streamline that a little faster in 
Europe.
    So my question is, do we know what these certificate needs 
are for the future? Are they going to stay the same, or are 
they going to continue to change? And do we need to take that 
into account?
    Mr. Sieber. Well, I think it is actually a little bit of a 
mix because there are some very basic machining skills, 
inspection skills, assembly skills that require a person with 
the interest with a mathematics background to be able to adapt 
to. Certainly, the newer machine tools have higher levels of 
computer equipment to work with them. Certainly, the newer 
inspection equipment also offers a challenge.
    With that said, there are skills like composites, and I 
have worked in composites a bit, and there is a learning 
involved with that technology that is different. And it is not 
something that is normally available to most high schools, 
being able to work with the autoclaves and the pressurized 
equipment, both from a temperature or pressure. There is a lot 
of cost involved with the equipment. So it is very specialized, 
certainly not as available as a machine tool or a micrometer.
    So I think we need to make sure that we have got the 
basics. Even with composites, you still need to know how to 
read a gauge, how to read a blueprint, how to do math. And then 
be able to build on that with some of the more specialized 
skills, but recognize it is not going to be something that 
every school can offer.
    Dr. Hermanson. If I could add to that from the university's 
point of view? Composite materials and structures is huge. It 
is a landmark area. It is truly changing aviation with the 
increased performance that you can get from these materials. We 
have a very active program in composite materials and 
structures and offer actually a master's degree in that, as 
well as a certificate program.
    So for half of the answer, I would agree with Mr. Sieber, 
that composite materials and structures is going to remain an 
active topic probably for the next 20 years or so. But I think 
another one that is emerging and not necessarily the only one 
is, as a Nation, we need to again renew our focus on energy as 
a key topic.
    And we have these energy crises periodically. We have been 
talking about energy as a nation for 30-plus years. But what is 
our energy strategy? Where are we going?
    And we have seen with the recent boost in oil prices and 
fuel prices, again the discussion has increased on alternative 
fuels from an economic standpoint. But I think for the 
sustainability of aviation, alternative fuels is going to be a 
key area that in a sense that energy issues have been around 
for a long time. We have all grown up thinking and talking 
about energy.
    Maybe, pun intended, we need to renew our discussion of 
energy and open this up to get the resources and start new 
programs in alternative fuels. Aviation being one example, but 
this spills over into transportation more broadly and into the 
national economy.
    So my vision might be along that 10 years from now we have 
a dynamic composite materials and structures program. We have 
an equally dynamic energy and aviation--green aviation, 
sustainable aviation, alternative fuels program--with also 
clear benefits to the economy and to the Nation. So that is 
another area.
    Mr. Greenwood. I would just add to Mr. Sieber's comments 
around your question around certificate training. Certainly, 
technology changes. Machine tool technology, the way we 
fabricate might change over time. But some of those core 
foundational skills that were good 80 years ago, were good 20 
years ago, are still needed today.
    The math skills, the ability to measure, the ability to be 
collaborative--all those foundational skills around 
manufacturing, we need to kind of revisit that, I think, across 
the State with young people. We often say this internally, and 
it is true, that young kids today don't spend time in the 
garage with their father or their uncle. And in some cases, 
they haven't even been to the garage.
    So there is an opportunity to kind of revisit some of that 
core training for our kids.
    Senator Cantwell. I think a lot have been on flight 
simulator, though, haven't they?
    [Laughter.]
    Mr. Greenwood. That is true. True.
    Senator Cantwell. Mr. Greenwood, you mentioned yourself the 
apprentice program and that you were part of that. How do we 
encourage students to take an interest in aerospace? Do you 
think this is a chicken and an egg that if we create apprentice 
slots, the people will come? Or do you think this is an issue 
of we also have to attract people into these careers and 
reposition it? I think you mentioned some of that in your 
testimony.
    Mr. Greenwood. Yes. I think we do need to create excitement 
with our kids today about what is manufacturing and assembly, 
how do those airplanes get built, how do we manufacture 
products of all kinds. And I think our efforts to get back into 
the classroom, have our Boeing employees and other suppliers 
visit the classroom and inspire young kids into this career is 
step one.
    And I think that there are some really great examples of 
things we can share with kids. We can show videos. We can 
conduct tours. We can really excite today's youth about the 
opportunity to get into manufacturing.
    Senator Cantwell. Any of the other panelists on that point, 
on the apprentice program and what we need to do? Obviously, 
the Department of Labor grant will create some capacity to do 
more education. But if you look at these numbers, at least of 
what Mr. Greenwood and Mr. Hermanson are saying about the 
future demand, I mean, we are talking thousands of job slots 
here that we are going to have to fill and a retirement of 
machinists that are going to accentuate that.
    Mr. Julin. And I think the problem is really twofold. One, 
you have got education in the basic skills, and we all know 
that that is important. But how do you get the more advanced 
skills also? And I think we also have to look at whether we are 
training in the right things?
    Well, it is really a moving target. It is very dynamic. And 
the only way that we are going to ensure that we are training 
in the right things is to make sure that we have that industry-
academia-education system link, and we can't calibrate today 
and say, OK, we have got everything in place, and we are going 
to meet all the needs of industry, and then just forget about 
it and move on. Because it has to be an ongoing process.
    We do have some systems now where industry is talking to 
the educators. There are systems set up. But we have to keep an 
emphasis on that. We can't just go back to old ways of just 
educating the way we always have been.
    And that, really, I think comes down to equipment. I was 
involved on an advisory panel where we allocated some funds for 
equipment, and that is great. But that equipment is probably 
going to be there for decades.
    It is going to go out of date. The only way to stay up with 
it is to have the education system have access to industry's 
latest and greatest technology, and we have to figure that one 
out.
    Senator Cantwell. How about that, Mr. Greenwood? Is that 
something possible, the kind of third shift access to 
technology for training purposes or inspirational purposes?
    Mr. Greenwood. I think it is a really great point. We have 
certainly talked about the possibility of internships not only 
for students, but for teachers and members of academia. I don't 
think we are at a place now where we are ready to commit to 
that, but I think the idea is excellent, a very good idea.
    Senator Cantwell. Because, Mr. Julin, you have quite a few 
internship programs, right, and leadership programs at your 
facility? Or Mr. Sieber, is that you, that you do quite a bit 
of that?
    Mr. Sieber. We have internships, not so much on the 
apprenticeships. And for us, that is a win-win because we embed 
our interns right into the job, working with our engineers, 
working with our shop. They are part of our team, and we see a 
lot of excitement because we share quite a bit with them. They 
are there to learn. They are there to contribute.
    But then we also tie them into other parts of the business 
so that they can see the higher picture. As an example for 
myself, on a weekly basis, we will meet with all the other 
plants within the aviation system. And my interns will come in 
and sit as part of that panel with me on the videoconference 
and be able to hear what is going on in other parts of the 
industry as well.
    So I think a key to keep that excitement is to not 
pigeonhole them too much, to really let them see that there is 
a number of opportunities that the experience will contribute 
to.
    Dr. Hermanson. If I could add onto that? You know, going 
back to the educational point of view, I think another thing, 
another condition we should acknowledge is that education has 
changed a lot in the last 20 years. And the biggest single 
thing I would point to is the emergence of the Internet and 
rapid exchange of information and the computer skills.
    One result is the incoming students, the undergraduates 
that we get, generally are extremely familiar with computers. 
They are very comfortable with computing. They can run their 
own codes. They can run multiple programs that is simply not an 
issue. Their computational skills are very strong.
    But at the same time, I think there has been a certain 
erosion of the emphasis of fundamentals in the sense that we 
emphasize the fundamentals in our program, but you can do so 
much with high-speed computing now, the nature of how students' 
thinking is changed to an extent. And in conversations I have 
had with my counterparts in industry, a theme that has come up 
again and again is those computer skills and those capabilities 
are good, but we need fundamentals.
    In the industry, we need a solid understanding of the 
fundamentals, which is one thing that we stress, on top of more 
hands-on experience that we have also heard from this panel. 
More opportunities to get involved, to take apart that car 
engine and reinstall it, and that sort of thing.
    And then the third category, of course, that we have 
already talked about is the increasing emphasis on people 
skills that we already do through the projects we run. So my 
comment to my industrial counterparts would be that anything we 
can do in developing these kinds of joint programs that 
impresses upon students the need for fundamental understanding, 
hands-on experience, and then building their people skills are 
important. And we appreciate your computer skills. You know, 
young people, they are terrific, but these other skills have to 
backbone all of those.
    Mr. Greenwood. If I could just add one more comment on your 
mentioned apprenticeship, and there is absolutely a place for 
6,000, 8,000, and 10,000-hour apprenticeship programs in the 
trades. I think, and I know we are going to hear from in the 
second panel talk about short-term certificate training. 
Absolutely vital method for getting entry-level workers into 
our industry.
    And that could be as short as 12 weeks or 2 quarters or 
even a year or 2, but certainly around apprenticeship, there is 
value in the traditional 4- and 5-year apprenticeship programs.
    Senator Cantwell. And we have a gap there is what you are 
saying?
    Mr. Greenwood. I am not necessarily saying we have a gap 
there. I am saying that the value those programs bring to our 
industry is immense.
    Senator Cantwell. OK. We are going to turn to our second 
panel in a minute, but I thought maybe I could close with this 
question to you all. Since you have all chosen this area of 
expertise, something lit the lamp for you. If you had 30 
seconds to say why young people should be interested in this 
career or why we should--why they should pursue this.
    I feel like we are, again, at this incredible moment where 
we have now seen the production schedule that Boeing is going 
to pursue and won some victories, as the tanker and composites. 
And yet we need to instill in the next generation how 
critically important, even in this near term, it is going to be 
get a skilled workforce.
    And so, I just wonder if you, from you have said, don't 
forget the basic training, don't forget the fundamentals, don't 
forget that you have to start that at the K through 12 level 
and then take some of those students and put them into the 
apprentice and the certificate programs. You are reminding us 
that we have to start early at this, but how do we do this 
every day.
    I don't know. Maybe you should put a little sign outside. 
``Interested in a future job in aerospace? Come find out 
more.'' Because, obviously, Mr. King is funneling a lot of 
enthusiasm through the doors here of the museum every day.
    But what would you say to Washingtonians, to Americans, 
about the critical importance of this sector, which is really 
one of the leading manufacturing sectors the United States has, 
and we want to retain it. So what would you say? You can take a 
minute. You don't have to limit yourself to 30 seconds.
    What would your message be to encourage young people to 
consider this career and to the existing workforce that maybe 
is unemployed right now, to get down to one of these community 
colleges, to get involved in one of these certificate programs?
    Dr. Hermanson. Well, I think two parts. First, I think the 
challenge is that the aerospace environment has changed in a 
sense. I grew up during the Apollo era, and my colleagues have 
had similar experiences. So the 1970s, it was a time of great 
transformation. We were going to the Moon. We were doing 
entirely new things.
    I am emphasizing space a little bit here, there was a clear 
excitement there as a nation, you know, that we rallied around 
that, and the entire country could focus on aerospace as a 
wonderful, exciting field.
    We may have lost that a little bit in that we are not going 
to the Moon. The Space Shuttle has just been retired. We seem 
to be on a little bit of a plateau. So I think the challenge is 
to energize the generation now to recognize aviation is still 
exciting. There are still major transformations coming.
    Perhaps focuses there might be globalization, to get 
America, you know, get our State and our Nation to focus on the 
global world we are in. The world is really shrinking. We need 
transportation. We need communication. Aviation is a key player 
in that and that there are more transformations coming to 
generate excitement.
    And then the other area, of course, is energy, its clear 
dependence. Aviation plays a role in that as well. So if we 
focus on those challenges as new generations of aircraft 
continue to emerge, perhaps we can help regenerate that 
expectation. And at the same time again, NASA eventually will 
be going back to the Moon, asteroids, and Mars, hopefully, and 
that will also help.
    A final one is, of course, the Cold War, which at least 
underscored the critical need for aviation technology. Not that 
we would welcome another cold war, but that was a factor in 
increasing level of aerospace awareness.
    Senator Cantwell. Mr. Greenwood?
    Mr. Greenwood. Yes, I would just say, to reiterate what I 
said in my opening statement is that aerospace and 
manufacturing, these are challenging, high-tech, enjoyable jobs 
and career choices for our young people. And we talk about 
aerospace here today, of course, but a lot of the skills that 
students can learn will transfer to other industries, to other 
manufacturing sectors, and that really it is a wonderful career 
choice for our young people to consider.
    And again, I would say that you mentioned Washingtonians, 
and we often talk about this is that we think the messaging 
needs to be from border to border, from north, south, east, and 
west is that the messaging about the opportunities in aerospace 
and manufacturing needs to be clearly communicated and 
understood by everyone in our State. And so, manufacturing is 
alive and well. We build the world's greatest aerospace 
products right here and that opportunity abounds.
    Senator Cantwell. Great. Mr. Sieber?
    Mr. Sieber. I will just share something shared with me 
many, many years ago was find something that you love and make 
a career out of it. So I think, Jim, with the museum here, as 
people come in, they are coming here to see planes. And so, 
maybe give them a pamphlet that says if you like planes, these 
are some of the careers that could exist in your future. It is 
not just designing them. It is being the machinist, being the 
assembler, being the inspector, being the technicians, working 
in aviation whether it is in the shop or whether it is in the 
office with jobs like material management or sourcing.
    The one thing I find, and I have been to a ton of aerospace 
firms over my 31-year aviation career, you walk through the 
shops, you walk through the offices, and people in aerospace 
love planes. They have planes on their desks. They have planes 
on their workboxes. They have the stickers. They are very proud 
of what they do.
    And for me, the passion was very early on. I just fell in 
love with planes. I went to an airport when I was a young kid 
and fell in love with aviation and knew I wanted to get into it 
in some manner. So I think just trying to build on that love of 
airplanes.
    We have one heck of an opportunity because we have a growth 
industry. We are having a hard time filling jobs. We have a 
country that has people that want to work--that need to be 
employed, and we just have to marry up the people, the 
education, the industry. So I think we have that passion.
    Senator Cantwell. Mr. Julin, any final comments?
    Mr. Julin. It was exactly the same way with me, and it is 
about airplanes. I have been in the business for 40 years. My 
father was a pilot in the Air Force for 28 years. So I grew up 
going to air shows, and I was always around airplanes. It was a 
passion.
    Especially when I got my pilot's license, I knew that 
aviation was what I wanted to make a career out in. I didn't 
make a career out of flying, but I made a career out of 
aviation and aerospace.
    And I think between museums, air shows, and businesses 
inviting students in to see what they do, we provide the needed 
inspiration. Boeing is a great example of being able to ``touch 
and feel'' airplanes. Absolute Aviation is in a hangar with 
Empire Airlines. So I always bring the kids over to make sure 
that they see airplanes, too. They see what the end product is.
    Bottom line, I think it is about the passion for airplanes. 
There is a certain appeal, and it is an exotic and exciting 
industry. The people that are in it are not here for the money. 
We are here because it is about airplanes.
    Senator Cantwell. Great. Thank you, gentlemen, very much, 
and we will look forward to working with you. And again, thank 
you for your testimony today.
    This information that is gathered here goes to our full 
Committee back in Washington, D.C., and we leave the record 
open in case any of my colleagues also want to chime in and 
pose questions to you through writing.
    So thank you for being here today, and we will look forward 
to talk to you more about some of the solutions and 
possibilities.
    So we are going to move to the second panel now, and if 
they would come up to the stage and join us? That is Tom 
McCarty, who is the President of the Society of Professional 
Engineering Employees in Aerospace; Mr. Jim Bearden, 
Administrative Assistant, District Lodge 751 for the 
Machinists; Ms. Laura Hopkins, who is the Executive Director of 
the Aerospace Joint Apprenticeship Committee; Ms. Cyndi 
Schaeffer, Executive Director of Edmonds Community College 
Business and Training Center; Mr. Joe Dunlap, President of 
Spokane Community College; and Ms. Reba Gilman, Principal and 
Chief Executive Officer of the Aviation High School.
    So welcome to the second panel. That is definitely a 
quicker shift than what we are able to do in Washington, D.C., 
changing. So we are already ahead of the game. We know how to 
move in and out.
    OK. We are going to start with you, Mr. Bearden. Thank you.
    Welcome to all the panelists. Thank you for spending time 
here this morning to talk about this important issue. And many 
of you are obviously involved in many of the aspects we 
discussed on the first panel. But thank you for your leadership 
in this important area.
    And Mr. Bearden, we will start with you.

   STATEMENT OF JIM BEARDEN, ADMINISTRATIVE ASSISTANT TO THE 
PRESIDENT, AEROSPACE MACHINISTS INDUSTRIAL DISTRICT LODGE 751, 
                 INTERNATIONAL ASSOCIATION OF 
                MACHINISTS AND AEROSPACE WORKERS

    Mr. Bearden. Well, good morning, Senator Cantwell.
    Senator Cantwell. And again, just you might have to pull 
those microphones. They are a little sensitive. You might have 
to pull them closer to you.
    Mr. Bearden. How is that?
    Senator Cantwell. Yes.
    Mr. Bearden. I can taste it.
    Senator Cantwell. Perfect.
    [Laughter.]
    Senator Cantwell. Perfect.
    Mr. Bearden. Well, good morning. I am here today to talk 
about opportunities that I had as a young person that truly, in 
most cases, don't exist today and to encourage you, as leaders 
in Congress, to take steps to reenergize the teaching of 
vocational skills in our Nation's schools.
    Starting in the seventh grade, I had the option of taking a 
variety of vocational classes. I took metal shop, auto shop, 
wood shop. By the time I reached high school, I already knew 
that I enjoyed working with my hands and that I was good at it.
    As a result, I focused on learning a skilled trade. After I 
graduated, I worked in several union shops and eventually came 
to work at Boeing and later became a union officer. It has been 
a rewarding career. I have been able to buy a home and raise a 
family. I pay my taxes and support numerous charities.
    But as I have raised my family, I have seen changes in 
educational philosophy. Our schools have promoted the idea that 
everybody needs to go to college, get a 4-year degree, and 
become a software engineer or a banker. Most of our local 
schools don't offer classes in shop anymore. When these shop 
courses are offered, they are offered at vocational skills 
centers.
    Now the instruction at those places may be good, but it is 
only offered to high school juniors and seniors. I would argue 
that by the time a teenage boy or girl is a junior in high 
school, it may be too late. If our young people aren't exposed 
to careers in the trades at an early age, they will never have 
the chance to consider whether a manufacturing job could be 
their life's work.
    That is a shame. It is possible to make a good living as a 
manufacturing worker in aerospace without going to college. 
That is particularly true if you are working in a union job. 
Our union members at Boeing earn on average more than $58,000 a 
year, and they have good benefits, too.
    Now while you don't have to hold a college degree to become 
an aerospace machinist, you do need to have a high-quality 
education. There are a lot of vocational skills to be learned 
and physical skills to master. Young people must learn how to 
use complex tools like computerized numerical control machines 
or the digital displays that have replaced blueprints.
    They will also need classroom learning. Our machinist union 
members have to have good skills in math, geometry, 
trigonometry, and beginning calculus. They need to understand 
principles of physics, metallurgy, and electricity, and the new 
composite technologies.
    Sadly, one of the biggest problems we have finding 
candidates for our joint IAM-Boeing apprenticeship program is 
that many of the people who apply lack these basic academic 
skills. To fix this, we need to start making serious investment 
in our schools and in other workforce training programs like 
apprenticeships.
    But we need to start immediately. Our union has 30,000 
members across Washington State, and about a third of them will 
retire in the next 5 to 7 years. It is a big challenge. Even if 
every community college in Washington and every regional high 
school vocational center graduated 100 aerospace workers a 
year, that still would only equal about half of the workers 
Boeing needs.
    And that is not taking into account the needs of more than 
600 aerospace suppliers around Washington State--companies like 
Triumph Composites in Spokane, Pexco in Union Gap, and Hytek 
Finishes in Kent. Having this kind of workforce is essential to 
our Nation's future. Aerospace, we know, is a key part of our 
national security. Aerospace is also essential to the economic 
security of the United States. It is well known that Boeing is 
America's number-one exporter.
    But the industry's biggest impact is on local economies. 
The money our union members earn gets spent at local car 
dealerships, stores, and restaurants. Their insurance benefits 
support local clinics and hospitals, and their pensions allow 
them to retire with dignity in their local communities.
    If we don't have enough trained workers to meet the demand, 
America will lose its position as the world's leader in 
aerospace, and we will lose all those economic advantages. I 
urge the Senate to take action quickly. We, as a nation, need 
more investment in vocational education in our local schools 
and in our community and technical colleges. We, as a nation, 
need to encourage a rebirth of manufacturing apprenticeships, 
and we need to improve the quality of math and science 
education in our Nation's public schools.
    Ninety-nine percent of our children will never become 
investment bankers or Wall Street financiers. Not everyone is 
interested in or can afford college. I couldn't. But because I 
had opportunities to explore vocational education options in 
the K through 12 system, I was able to find a career in 
manufacturing that allowed me to buy a home, raise a family, 
and contribute to my community.
    It is my duty as a union officer to make sure that the 
young people who come after me have that same opportunity, and 
it is my goal as an American citizen to see Government, 
business, and labor come together to support our Nation's 
aerospace industry. Because when we do that and work together, 
we can't be stopped.
    Thank you.
    [The prepared statement of Mr. Bearden follows:]

  Prepared Statement of Jim Bearden, Administrative Assistant to the 
    President, Aerospace Machinists Industrial District Lodge 751, 
     International Association of Machinists and Aerospace Workers

    Good morning, Senator Cantwell and members of the Subcommittee. My 
name is Jim Bearden, Administrative Assistant to the President for 
Aerospace Machinists District Lodge 751, which represents 45,000 active 
and retired aerospace workers. Thank you for the opportunity to address 
the Subcommittee.
    I'm here today to talk about opportunities that I got as a young 
person that don't exist today in America, and to encourage you, as 
leaders in Congress, to take steps to re-energize the teaching of 
vocational skills in our Nation's schools.
    Without a strong commitment to this, America will lose its position 
as the global leader in aerospace manufacturing, which will lead to 
further declines to our Nation's economy in general, and lost jobs for 
our middle class in particular.
    When I was a teenager--back in the Seventies--I had the option of 
taking a variety of vocational classes. I took metal shop. I took auto 
shop. I took wood shop. By the time I reached my junior year of high 
school, I already knew that I enjoyed working with my hands, and that I 
was good at it. As a result, I focused on preparing to learn a skilled 
trade.
    That led me to union jobs in Everett, at the Hanford Nuclear 
Reservation in the Tri-Cities, and eventually at Boeing, where I became 
an Aerospace Machinists Union officer.
    It's been a rewarding career. I've been able to buy a home and 
raise a family. I pay my taxes and I contribute to charities.
    But as I've raised my family here in Washington State, I've seen 
changes in educational philosophy that aren't changes for the good. 
Over the past 15 years or so, our schools have promoted the idea that 
everyone needs to go to college, to get a four-year degree and become a 
software engineer or a banker.
    Most of our local schools don't offer metal shop anymore. Many 
don't offer wood shop. Auto shops are few and far between.
    When these shop courses are offered, they're offered at vocational 
skills centers. The instruction at those places may be good, but it's 
only offered to high school juniors and seniors.
    I'd argue that by the time a teen-aged boy or girl is a junior in 
high school, it's too late. If our young people aren't exposed to 
possible careers in manufacturing and other trades at an early age, 
they'll never have the chance to consider whether a manufacturing job 
could be their calling, and their life's work.
    That's a shame. It's possible to make a good living as a 
manufacturing worker in America, without going having a bachelor's 
degree. That's particularly true if you're working in a union job. Our 
union members at Boeing earn, on average, more than $58,000 a year. 
They have good benefits too, the kind of health insurance that means 
they don't have to fear bankruptcy should someone in their family be 
struck with a serious health problem.
    But while you don't have to hold a college degree to become an 
aerospace Machinist, you do have need to have a high-quality education.
    There are a lot of physical skills to be learned, and manual 
dexterity to master. I recently visited a vocational skills center in 
Yakima where high school students are training for potential careers in 
aerospace manufacturing. The instructor there has his students practice 
for 15 minutes every day the technique for drilling holes, so that at 
the end of their 2 years of study, they can be confident in their 
ability to drill a hole straight and clean--and accurate to within a 
few thousands of an inch.
    That's a skill they must have to succeed. Failure to do that in the 
workplace can mean an aircraft part worth tens of thousands of dollars 
is ruined.
    The young people also will need to learn how to use tools far more 
complex than drills. They'll need to learn how to program computerized 
numerical control machines. They'll need to know how to read the 
digital displays that have replaced blueprints.
    And while these vocational skills are essential, they'll also need 
classroom learning. Our Machinists Union members have to have good 
skills in math--geometry and trigonometry in particular, but also 
beginning calculus. They need to understand principals of physics, 
metallurgy and electricity and the new composite technologies. And they 
need to have the soft skills that all businesses require: the ability 
to read and write, to work in groups yet be individually accountable.
    Sadly, one of the biggest problems we have finding candidates for 
our joint IAM/Boeing apprenticeship program is that many of the people 
who apply lack these basic academic skills--particularly in math. As a 
result, they don't get the chance to train for the top-level, highest-
skill jobs that command the biggest paychecks.
    To fix this, we need to start making serious investments in our 
schools, and in other workforce training programs, like 
apprenticeships, which for centuries have offered young people a path 
toward meaningful careers in skilled trades.
    But we need to start immediately. Our union has 30,000 members 
across Washington State, and we estimate about a third of them will 
retire in the next five to 7 years. Meanwhile, a full-fledged aerospace 
manufacturing apprenticeship can take 4 years to complete. This means 
we only have a short window of time to help our members pass on their 
skills and experience to the next generation, and to get our new people 
trained to the highest level.
    It's going to be a tremendous challenge. The administrator in 
charge of that Yakima skills center told me that if every community 
college in Washington, and every high school vocational center, 
graduated 100 workers from aerospace training programs a year, that 
still would only equal half of the workers Boeing needs, to replace 
workers who are retiring, and to ramp up to meet the production goals 
the company has set for itself.
    And that's not taking into account the needs of the aerospace 
suppliers around Washington State. We've got more than 600 of them 
here, companies like Triumph Composites in Spokane, Pexco in Union Gap 
and Hytek Finishes in Kent. Each of them does complex work that 
requires a highly trained, highly skilled workforce.
    Having this kind of workforce is essential to these companies' 
futures--and to our Nation's future.
    Aerospace, as we all know, is a key part of our national security. 
We have to maintain a deep and broad pool of skilled aerospace workers 
if we are to continue to build and maintain the military aircraft that 
defend our borders.
    Aerospace is also essential to economic security of the United 
States. It's well known that Boeing is America's No. 1 exporter, which 
helps us maintain our position as a leading world economy. In addition, 
aerospace exports have a positive impact on our Nation's balance of 
trade.
    But industry's impact on local economies is even greater--here and 
in places like Wichita and Portland and Long Beach, California, and 
everywhere else that aerospace workers spend their union paychecks. The 
money they earn building airplanes and airplane parts gets spent at 
local car dealerships and restaurants, shopping malls and convenience 
stores. Their insurance benefits support local clinics and hospitals, 
and their pensions allow them to retire with dignity, without being a 
burden on their families or communities.
    If we don't have enough trained workers to meet the demand, 
American will lose our position as the world's leader in aerospace, and 
we'll lose all the global and local economic advantages that go along 
with that.
    To keep that from happening, I'd urge the Senate to take action 
quickly, to spur improvements in all forms of workforce training. We, 
as a nation, need more investment in vocational education in our local 
schools and in our community and technical colleges. We, as a nation, 
need to encourage a rebirth of manufacturing apprenticeships, which we 
in the labor movement like to call the original four-year degree. And 
we need to improve the quality of math and science education in our 
Nation's public schools, so that our high school graduates are able to 
perform the high-skill manufacturing work that will earn them the best 
standard of living.
    Ninety-nine percent of our children will never become investment 
bankers or Wall Street financiers. Not everyone is cut out for 
college--I wasn't.
    But because I had opportunities to explore career choices as a 
skilled tradesman, I was able to find a career in manufacturing that 
allowed me to buy a home, raise a family and contribute to my 
community. It's my duty as a union officer to make sure that the young 
people who come after me have that same opportunity, and it's my goal 
as an American citizen to see government, business and labor come 
together to support our Nation's aerospace industry and the economic 
benefits it creates.
    A perfect example is the recently awarded U.S. Department of Labor 
$20 million grant to the Air Washington consortium in support of 
aerospace workforce development in our state. I want to take this 
opportunity to express our sincere gratitude to Senator Cantwell for 
her assistance in securing that grant.
    Machinists Union District Lodge 751 is committed to keeping our 
Nation the world's leader in aerospace, with Washington State at its 
center. We work daily with Boeing, other aerospace companies, elected 
officials, the educational institutions and workforce development 
councils to maintain this highly-skilled workforce, which is our major 
competitive advantage. Along with my testimony, I've submitted a power 
point that outlines some of the IAM's collaborative efforts with Boeing 
in this area.
    I would encourage you as leaders in the U.S. Senate to continue and 
redouble your efforts to ensure we have the most highly-trained 
aerospace workers in the world for decades to come.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Cantwell. Thank you.
    [Applause.]
    Senator Cantwell. We don't usually clap at field hearings 
either, but that was a very poignant and precise statement. So 
thank you, Mr. Bearden.
    Ms. Gilman, thank you for being here.
    Ms. Gilman. Thank you.
    Senator Cantwell. We look forward to hearing about all the 
successes of Aviation High School and how we can expand on it.
    Thank you.

     STATEMENT OF REBA GILMAN, CHIEF EXECUTIVE OFFICER AND 
                PRINCIPAL, AVIATION HIGH SCHOOL

    Ms. Gilman. Well, thank you for inviting me to testify.
    I am Reba Gilman. I am the Principal and Chief Executive 
Officer of Aviation High School.
    I have had the honor of leading the high school since its 
inception. I have also been an administrator of a comprehensive 
high school and a State skills center, and I have worked for a 
large aerospace firm and owned my own business. These 
experiences have impressed upon me the critical need to prepare 
young Americans to innovate and lead in science, technology, 
and engineering.
    Partnering with the Museum of Flight, and as a result of a 
public-private partnership that raised $43.5 million, Aviation 
High will occupy a new school in 2013, right here on museum 
property in close proximity to more than 200 aerospace-related 
companies and industry professionals who are essential in 
mentoring and preparing our students for further education and 
careers.
    We are a college prep high school for students who have a 
passion for aviation and aerospace. It was conceived in 
response to the critical need to improve student achievement in 
math and science and to prepare students for the demands of a 
high-tech global workforce.
    Our school plays an important role in the U.S. effort to 
stay competitive in global air and space innovation and fill 
our region's need for a STEM-proficient workforce. Seventy-
seven percent of our students are pursuing STEM education and 
career pathways. Forty-eight percent pursue engineering 
pathways, and that is more than four times that of other high 
schools in our State.
    Our model is project-based learning, deep scientific 
inquiry, and high-stakes performance assessment in which 
students present and defend their learning to industry 
experts--engineers, technicians, and aerospace leaders who can 
provide real world feedback.
    Seven years after its founding, Aviation High School has 
developed from an experiment in public education to a proven 
model of success. Students consistently score in the top 5 
percent of Washington high schools in science, math, reading, 
and writing, with a significantly higher population of students 
coming from low-income families and ethnic minority groups.
    Out of nearly 22,000 schools surveyed by U.S. News and 
World Report, our school was rated one of the top 6 schools in 
Washington State and the top 500 nationally for preparing all 
students for college. Average daily attendance is 96 percent, 
with some students commuting 120 miles or more a day to attend 
school.
    Our graduation rate is 98 percent, and our graduates are 
being recruited to and accepted at places like MIT, Berkeley, 
and military academies. Successful sports of the mind teams, 
such as First Robotics and Science Olympiad, dominate the 
culture of our school.
    We opened our doors in 2004 with a freshman class of 100 
students and now are over capacity with 420 students in grades 
9 through 12. Our success has resulted in nearly three times 
the number of students applying for admission than we can 
accept.
    Our model is research based and small by design. Our goal 
is not to become larger, but replicable to other parts of the 
State and the country. We have discussed this goal with the 
Federal Government during trips to D.C., and also we hosted a 
visit to Secretary of Education Arne Duncan to our school. And 
while there is a good deal of interest, there has been little 
agency follow up.
    I would respectfully ask that this committee to help turn 
the rhetoric from Federal agencies into action. I would like to 
thank you, Senator, along with your colleagues Congressmen 
Smith and McDermott, for securing close to $600,000 for 
laboratory equipment at the new school. I also want to applaud 
local employees of the FAA, who serve as mentors to our 
students and staff.
    I offer two recommendations for your consideration. First, 
help us formalize a relationship with the FAA by having the 
agency provide a full-time staff person to the school, offer 
paid internships to students, and help expose and familiarize 
our staff with cutting-edge technologies, such as UAVs, next-
gen standards, et cetera.
    Second, I ask the Committee to consider working with 
industry, Federal agencies, and with us to help replicate 
schools like ours in other parts of Washington State and the 
country. Our students want to follow in the footsteps of 
Washingtonians who have created innovations that have been 
adopted worldwide.
    People like James Raisbeck, whose name we will place on our 
new school, a world-renowned aerodynamicist and entrepreneur 
who, among his many innovations, has created secured cockpit 
doors after the 9/11 attacks. And Joe Clark with the winglet, 
which has saved millions in fuel costs. Captain Steve Fulton, 
who created extraordinary aircraft navigation performance 
systems.
    And of course, Bonnie Dunbar, former Astronaut and CEO of 
the Museum of Flight, and Doug King, current CEO, President of 
the museum, who believe that a premier high school and a 
premier education museum ought to partner to inspire and 
prepare students to pursue STEM careers.
    Our first Aviation High School alumni are graduating from 
college this spring. Already some are being recruited by major 
commercial jet engine manufacturers and other critical players 
in this Nation's air and space industry. We can provide more 
innovators if we replicate our model in other areas.
    Thank you for the opportunity to testify today. Our school 
stands ready to assist you in filling the STEM pipeline with 
the intellectual and technical capital that ensures the 
prominence of aerospace innovation in the Washington State and 
national economies.
    [The prepared statement of Ms. Gilman follows:]

    Prepared Statement of Reba Gilman, Chief Executive Officer and 
                    Principal, Aviation High School

    Good morning. I am Reba Gilman, Chief Executive Officer and 
Principal of Aviation High School.
    Thank you for holding this hearing today and inviting me to 
testify.
    I am a veteran educator, whose career has included teaching 
business and marketing, serving as an administrator of a large, 
comprehensive high school and as a Director of one of our state's 
skills centers. These experiences, combined with working in the private 
sector for a major aerospace company and owning my own business, have 
led to a deep understanding of the critical needs in education and the 
workforce . . . and to the founding of Aviation High School, which l 
have led since its inception and development over the past decade.
    At Aviation High, we have hosted hundreds of visitors from 
different parts of the United States and even different countries since 
opening our doors in 2004. Most of those visitors are interested in 
replicating our teaching, learning, and partnership model. It would be 
an honor to host you and your committee members at our current interim 
site and then again when we move to our new state-of-the-art school 
that is being constructed just across the street from here and that 
will be ready to occupy in 2013.
    It is important to note that we just completed a $43.5 million 
capital campaign to construct this new school. Partnering with the 
Museum of Flight, the school embarked upon a public/private capital 
campaign that successfully culminated this past summer. Located on the 
Museum's West-Side Campus, with the new Space Gallery and a future Air 
Transport Gallery, the school will have the best location imaginable. 
We believe that the creative, cutting edge educational programming that 
can be crafted through collaboration of our two institutions and the 
200 aerospace-related entities that surround Boeing Field, including 
Boeing's R&D facility, will be of unparalleled benefit to education and 
the workforce.
    We believe it is critical for theme-based, industry responsive 
schools to reside where they are closest to the resources that will 
help students get ready for further education and careers.
    Aviation High is a college prep high school where students have an 
affinity for aviation and aerospace, and it is a critical part of the 
U.S. effort to stay competitive in global air and space innovation. 
Aviation High students are pursuing STEM education and career pathways 
at nearly double the rate (77 percent) of their peers in other 
Washington State high schools . . . with 48 percent pursuing 
engineering pathways--which is about five times that of other high 
schools in the state.
    As I mentioned earlier, Aviation High School was conceived in 2000 
in response to the critical need to improve student achievement in math 
and science to ensure that our graduates were prepared for the rigors 
of college and the demands of a high-tech, global workplace. A 
Strategic Planning team of educators, business, labor, and government 
leaders came together to address these critical needs. We were intent 
on creating a teaching and learning model that required students to use 
their minds well, be passionate about the work in which they were 
engaging, and solve authentic and complex problems occurring in the 
work place. We landed on creating an aviation/aerospace-themed school 
because Seattle, being the birthplace of modern aviation with a huge 
reliance on a STEM-proficient workforce, was the right model for our 
region.
    When our grassroots planning team proposed our model to The 
Superintendent and Board of Highline Public Schools, they embraced the 
concept of blending the best practices in career and technical 
education with high academic demand . . . and gave us a green light to 
move forward if we could find initial funding. We found it from the 
Bill & Melinda Gates Foundation and Sea-Tac Airport.
    We opened our doors in 2004 in rented space on the Duwamish campus 
of South Seattle Community College, just up the street from the Museum. 
Since our first year, we have been intent on perfecting our model of 
project-based learning, deep scientific inquiry, and high-stakes 
performance assessment in which students present and defend their 
learning to industry experts--engineers, technicians, and aerospace 
leaders who can provide the kind of feedback that is needed to inspire 
further learning and pursuit of a STEM education and career pathway.
    Aviation High currently has an enrollment of 420 students with 
approximately 100 students in each grade level, 9-12. Each student is 
immersed in a college prep curriculum that makes them attractive and 
eligible candidates to any college of their choice.
    Extensive research shows that small learning communities with a 
focused curriculum and effective instructional practices are more 
likely to achieve higher results in student learning than large, 
comprehensive schools. Our school model is designed to be personalized, 
rigorous, and relevant. Our goal, therefore, is not to become larger 
but rather, replicable to other parts of the state and country that 
have similar needs.
    Aviation High teachers are a huge part of our formula for success, 
with 60 percent having experience outside of education, including 
engineering, computer science, research, and general aviation.
    Seven years after its founding, Aviation High School has developed 
from an experiment in public education to a proven model of 
extraordinary success:

  <bullet> Students in all four graduating classes have consistently 
        scored in the top 5 percent of Washington high schools in 
        science, math, reading, and writing. AHS serves a significantly 
        larger population of low-income and ethnic minority students 
        than any other school in this category.

  <bullet> Out of nearly 22,000 schools analyzed by U.S. News & World 
        Report in 2010, AHS was rated one of the top six high schools 
        in Washington State and among the top 500 in the nation, for 
        preparing all students for college.

  <bullet> Our average daily attendance rate is between 95-99 percent, 
        which is remarkable given that some students commute 120 miles 
        or more per day to attend school. AHS is a regional school that 
        attracts students from 22 school districts.

  <bullet> Our graduation rate is 98 percent.

  <bullet> AHS ranks 8th in the State of Washington for percentage of 
        students taking Advanced Placement exams.

  <bullet> Disciplinary issues are almost nonexistent--the lowest 
        number of sanctions in a district of 17,000+ students.

  <bullet> 94 percent of AHS students meet or exceed the requirements 
        for college admission as set forth by the Higher Education 
        Coordinating Board. Students take 4 years of math and science, 
        3 years of English and Social Studies/History, and 2 years of a 
        world language, all which include an aviation context where 
        appropriate.

  <bullet> Graduates are being accepted to top-level colleges and post-
        secondary institutions in the country, including MIT, Berkeley, 
        and military academies. Each graduating class has collectively 
        earned between $1-$1.7 million in scholarship awards, some on 
        full rides from organizations such as FIRST Robotics or 
        ``golden tickets'' to university engineering programs.

  <bullet> The Washington State Legislature designated Aviation High 
        School as a Lighthouse Model of STEM Excellence in recognition 
        of its best practices in teaching and learning and stellar 
        results in student achievement.

  <bullet> ```Sports of the mind'' teams dominate the culture of our 
        school as opposed to athletic teams. Our FIRST Robotics, 
        Science Olympiad, and Speech and Debate teams successfully 
        compete at regional, state, and national levels. They are 
        Ambassadors of STEM education who mentor elementary and middle 
        school students to inspire learning and consideration of a STEM 
        pathway.

    The successes that we have experienced over the years have resulted 
in nearly three times the number of students applying for admission 
than we can accept. It is reaffirming to know that so many young people 
are inspired by aviation and aerospace and want to be part of the 
solution in filling the critical gaps in the STEM workforce; at the 
same time, this incredible demand reinforces the need to replicate our 
model if we are intent on having the quality and quantity of students 
in the STEM pipeline.
    In preparing for my testimony I read the Labor and Workforce 
recommendations of the ``Future of Aviation Advisory Committee'' and 
wholeheartedly agree with them. I understand there has been an MOU 
signed between the Departments of Education and Transportation which 
may mean more assistance for schools like ours. I have been to 
Washington, D.C. on occasion to discuss Aviation High; and we have also 
hosted a visit to our school for Secretary of Education Arne Duncan. In 
being completely transparent, there seems to be a good deal of interest 
in our school from DOE officials, and we have been told at the highest 
levels that the Department wants to create ``more schools like AHS,'' 
but there has not been much follow-up.
    Thanks to Congressmen Smith and McDermott, who represent parts of 
our district, we will use about $600,000 in Federal money for lab 
equipment in our new $43.5 million school. We hoped for more support 
from the Federal Government for construction and are pleased to see 
construction-related recommendations in the report.
    At this point, Aviation High School could use assistance creating 
relevant and innovative programs with Federal aviation and aerospace 
agency help. The biggest challenge faced by this committee and 
industries that rely on STEM innovators, is turning the rhetoric from 
Federal agencies into action. I do want to applaud the work of the men 
and women of the FAA locally. They are dedicated professionals who want 
to share their passion and knowledge with our students. We appreciate 
their serving as mentors and subject matter experts.
    Aviation High School is completely committed to helping fill the 
stem pipeline. We are working with other STEM schools in the state to 
do just that. We are very willing to work closely with you to fill that 
pipeline as well, and here are three recommendations that will help us 
all:
    First, we ask that you help us formalize a relationship with the 
FAA by having the agency provide a full-time staff person at the 
school, offer paid internships to students and help expose and 
familiarize our students with cutting edge technologies in which it is 
currently engaged--Next Gen, UAVs, commercial space, systems safety, 
etc.
    Secondly, the Committee should consider working with industry, 
Federal agencies and Aviation High to help replicate schools like ours 
in other parts of Washington State and the country;
    And third, we recommend, even in this austere time, that you find 
ways to provide funding. We recognize that due to budget deficits, it 
is oftentimes necessary to cut programs; however, money should be spent 
on creating and expanding the STEM pipeline to keep this Nation's 
aviation and aerospace industry competitive in the midst of growing 
threats from elsewhere in the world.
    I want to leave you with a few examples of the sort of innovation 
we want our students to emulate--innovation that has made this Nation 
the premier aviation and aerospace leader in the world. The first three 
innovations were created by Washingtonians and have been adopted 
worldwide.
    Mr. Joe Clark, owner of Aviation Partners located just across the 
field from the Museum, along with his colleague Bernie Gratzer invented 
blended winglet technology, which saves hundreds of millions of dollars 
in fuel costs, protects the environment, modernizes aircraft, and makes 
them perform better. The winglet is now the standard on all commercial 
jets . . . and as their website states, ``The future is on the wing.''
    Steve Fulton was recently selected as a Pathfinder in Aviation by 
The Museum of Flight. As a former Alaska Airlines technical pilot, 
Captain Fulton knew first-hand how important it was to improve aircraft 
departure and arrival operations in Alaska. He led the development of 
what is now known as Required Navigation Performance (RNP) and now 
provides RNP solutions for airlines and air navigation providers around 
the world.
    When completed, our new school will be named Raisbeck Aviation High 
School after James Raisbeck, a world-renowned aerodynamicist and 
entrepreneur who owns and operates Raisbeck Engineering, located just a 
couple of miles from here--a firm that is dedicated to conceiving, 
engineering, designing, flight-testing, certifying and manufacturing 
performance improvement systems for the world's business and commercial 
jet-powered aircraft. James has an uncanny ability to see a need and 
innovate a solution. For example, after what we now refer to as 9/11, 
Raisbeck created secured cockpit doors that are now standard equipment 
on new and existing commercial aircraft worldwide. This innovation by 
our local icon has raised safety and security for flight crews to a new 
level.
    I cannot talk about local innovation without mentioning Bonnie 
Dunbar, former Astronaut and CEO of the Museum of Flight, Doug King, 
current CEO/President of the Museum, and all of the trustees and 
stakeholders of the Museum who believed that a premier high school and 
a premier education museum ought to partner for the benefit of students 
and their future contributions to the economy and to humanity. They are 
the ultimate innovators in creating a positive future for our youth and 
the air and space industry.
    The innovations that I have cited are of the same nature as 
students at Aviation High School want to create in the future. Our 
first crop of students graduating from college will enter the workforce 
next year. Already, some are being recruited by major commercial jet 
engine manufacturers and other critical players in this Nation's air 
and space industry.
    With your help, Aviation High can increase the number of innovators 
it is producing, both through offering better opportunities at our 
school and helping to replicate the Aviation High model in other 
places.
    Thank you for giving me the opportunity to testify today. Our 
school stands ready to assist you in filling the STEM pipeline with the 
intellectual and technical capital that ensures the prominence of 
aerospace innovation in the Washington State and national economies.

    Senator Cantwell. Thank you, Ms. Gilman. Thank you for 
those specific recommendations.
    Next, Ms. Schaeffer, welcome. Thank you for being here.

  STATEMENT OF CYNDI SCHAEFFER, EXECUTIVE DIRECTOR, BUSINESS 
              TRAINING CENTER, EDMONDS COMMUNITY 
                            COLLEGE

    Ms. Schaeffer. Good morning, Senator Cantwell. Can you 
hear?
    Senator Cantwell. You might pull it up a little closer.
    Ms. Schaeffer. Great. I am Cyndi Schaeffer, Executive 
Director of the Business Training Center with Edmonds Community 
College. I will be talking about the Washington Aerospace 
Training and Research Center, referred to as WATR, a little bit 
of its history, as well as the programs and challenges that we 
face.
    The WATR Center is operated through Edmonds Community 
College with an operating agreement through the Aerospace 
Futures Alliance, AFA. Before I describe the WATR Center, I 
want to take the opportunity to explain what happened before 
the center opened.
    Approximately 6 years ago, Senator, as you know, you were 
instrumental in the creation and development of the Center of 
Excellence, the Advanced Materials and Transport Aircraft 
Structures, AMTAS, where Edmonds Community College, University 
of Washington, the FAA, and others were members. Your office 
continued to support the college in accessing grants, to 
support composite training tools, equipment, as well as Senator 
Murray, Congressman Inslee, and the AFA.
    Briefly, there is two centers, as you know, in the State. 
The WATR Center serves the west side, and I know that Dr. 
Dunlap will be talking about his center in a moment. The intent 
and the mission of these centers is to provide Statewide 
training through collaborating with local community colleges 
and delivering training out of the centers themselves.
    The training delivered out of the centers has to be 
industry driven with a rapid response. If industry identifies a 
new need, we are expected to develop that training and deliver 
it immediately. WATR has recently developed a partnership and 
agreement with Renton Technical College to deliver the WATR 
trainings in King County as well.
    Just a little bit of a description, WATR opened in June 
2010, and it is because of our successful partnerships with the 
Boeing Company and suppliers, the Center of Excellence, 
Snohomish, WDC, AFA, and of course, our legislative support and 
your support. The industry-driven center is operated, again, 
through the AFA and consults with an AFA industry advisory 
board.
    Some of the challenges that we see, there are a lot of 
industry representatives telling us there is a lot of people 
out of work, yet not enough job candidates with entry-level 
skills needed to pursue even entry-level manufacturing jobs. 
And while engineering and other long-term skills are needed, a 
large number of the demand jobs can be taught in relatively a 
short timeframe. People can continue their education once they 
are employed.
    The second challenge we are hearing is the average age of 
aerospace workers, approximately 48 years old, and this aging 
workforce will result in skilled aerospace workers leaving the 
industry without skilled workers to replace them. And although 
the aerospace manufacturing industry has many career 
opportunities and ladders, today's youth appear to be unaware 
or disinterested in pursuing aerospace careers, and there needs 
to be more recruitment in middle school, high school, and young 
adults to the industry.
    Also, a challenge to the aerospace industry we are hearing 
is that the training content and delivery needs to be quick, 
fast, relevant, and industry driven. Training must be delivered 
using state-of-the-art methods to increase capacity that also 
increases students' capacity and learning.
    Training must be executed intensely, quickly, with a high 
level of retention. Our training content cannot be static, but 
it has to be continually reviewed, modified to ensure it is 
cutting edge.
    So how is WATR addressing the challenge? WATR Center has 
developed over 20 aerospace courses and a number of 
certificates requested by industry, including core aerospace, 
assembly aerospace, certificate FAA requirements, quality 
control, lean for aerospace, nondestructive testing for 
composite, among others.
    We not only teach the technical skills at the WATR Center, 
but we teach the soft skills or the global professional 
standards, such as interpersonal skills, teaming, conflict 
resolution. Those soft skills are so important that many 
aerospace companies are telling us they are not seeing in their 
new recruits and their new employees.
    WATR has delivered these courses and certificates to meet 
industry demands containing cutting-edge content, promoting 
fast and intense learning, serving a large number of students. 
Since the opening on June 2010, WATR has been offering core and 
assembly certificates on first and second shift. These 
certificates prepare students for jobs such as aerospace 
assemblers and aerospace manufacturers.
    These courses were developed to be delivered through online 
and very innovative technology that has been welcomed by 
younger and older students alike. Through an intense online 
course of study, students are able to move through the 
material. When they have demonstrated their knowledge and can 
repeat the content that is challenging, following demonstrated 
knowledge competency, the students participate in a month-long, 
intensive hands-on student learning experience 8 hours a day to 
help them apply their skills.
    Students successfully navigate through the 12 weeks of 
program, earning them 29 college credits. Using this innovative 
online hybrid model, the center has the capacity to graduate 
180 students per month. With the center's upcoming renovation, 
expansion to third shift and weekend courses, the center will 
have the capacity to graduate over 350 students per month, 
earning two certificates.
    To expand capacity and better meet industry needs, the WATR 
Center is partnering with the Renton Technical College and 
other colleges to train more students State wide. And in 
addition, the center is also offering aerospace electronic 
assembly mechanic certificate, and of course, other offerings 
include composite certificate, Six Sigma, quality control, 
quality inspection.
    As one of our graduates, Michael Greenwood, had mentioned 
earlier, we have over 400 graduates, 442, with a placement of 
85 to 90 percent within about 3 months. The 3 months is due to 
the time that aerospace needs to screen people properly to make 
sure they are not using drugs and have a clear record.
    Boeing has hired the majority of those graduates, but many 
supplier aerospace companies, such as TECT Aerospace, Flight 
Structures, Norfolk Shipyard, Bridgeways Manufacturing, Terry's 
Machine, Giddens, Crane Aerospace, Primus International, have 
also taken our graduates and hired them.
    The demographics of our students--16 percent of the 
students were female, 33 percent are nonwhite, and 24 percent 
were under the age of 25. Although the demographics are 
encouraging with respect to women and nonwhite populations, the 
numbers do raise concern regarding the low enrollment of 
younger students and that aging workforce issue. So we have 
implemented several strategies to increase the number of young 
students coming through the center.
    The first one is a project that we are launching in 
collaboration with the Boys and Girls Club, Senator, your 
office, the AFA. It is called the Cool Girls for Aerospace 
Project. It is being implemented in November. The club will 
require 13- to 15-year-old girls to make composite trinket 
trays, design personalized key chains using CAD and CATIA with 
prototype machines, and make paperweights using welding 
equipment.
    Throughout the training, the girls will view aerospace and 
manufacturing videos, introducing aerospace concepts. We plan 
to expand that program for boys, too.
    In addition, we have a huge marketing campaign. We are 
doing an aggressive advertising blitz in the Alderwood Mall. We 
are going to be using Generation Y themes and motivational 
concepts, based on academic studies and research. All the 
research suggests that the way we recruit young people, we 
would think, us baby boomers, to recruit people in the industry 
probably won't work.
    During September and late October, WATR will be mailing out 
44,000 postcards to residents, advertising WATR certificate 
geared to younger adults using those generation marketing 
strategies. We are also developing marketing videos and working 
with skills centers to offer scholarship programs for our 
certificates. Thus far, WATR has met with Sno-Isle Skills 
Center, Yakima Skills Center to develop agreements.
    So how are we reaching out to industry? AFA is leading an 
advisory board on our behalf. That is industry represented. 
WATR staff meets with the Boeing Company weekly, as well as 
suppliers. Our curriculum and training is developed by subject 
matter experts.
    Some of our challenges are the cost of running the program, 
the actual lab program. The Boeing Company was so generous to 
donate over $2.5 million of equipment and tools, but the 
materials needed to instruct those courses, in particular 
composites, is very expensive.
    [The prepared statement of Ms. Schaeffer follows:]

      Prepared Statement of Cyndi Schaeffer, Executive Director, 
          Business Training Center, Edmonds Community College

Introduction
    I'm Cyndi Schaeffer, Executive Director of the Business Training 
Center with Edmonds Community College. The Washington Aerospace 
Training and Research Center (WATR) is an aerospace training facility 
located at Paine Field, providing statewide training, by Edmonds 
Community College--Business and Training Department through an 
operating agreement with the Aerospace Futures Alliance (AFA).

History
    Before I describe the WATR Center, I want to take this opportunity 
to explain what happened before the Center opened. Approximately 6 
years ago, Senator Cantwell was instrumental in the creation and 
development of the Center of Excellence--Advanced Materials in 
Transport Aircraft Structures (AMTAS), where Edmonds Community College, 
University of Washington, the FAA, and others were members. Your 
(Senator Cantwell's) office continued to support the college in 
accessing grants and other funding to support composites training, 
tools, and equipment. Senator Murray and Congressman Inslee's offices, 
as well as the AFA, assisted the college in accessing grants and 
allocations to begin WATR.

Statewide Aerospace Centers
    Statewide Aerospace Centers are located on the East and West side 
of Washington to provide statewide training for aerospace companies. 
Spokane Community College serves the East side, and the Washington 
Aerospace Training and Research Center (operated through the AFA and 
Edmonds Community College) serves the West side.
    The intent and mission of these centers is to provide statewide 
aerospace training through collaborating with local community colleges 
and delivering training out of its centers. The training delivered out 
of the centers must be industry driven and have a rapid response. If 
industry identifies a new need, the centers are expected to develop 
that training. WATR has recently developed a partnership and agreement 
with Renton Technical College to deliver WATR trainings in King County.

WATR Center Description
    WATR opened in June 2010 through a variety of successful 
partnerships with the aerospace industry, Snohomish County, Center of 
Excellence, WDC, AFA, local legislators, and state and Federal 
Government. This industry driven center is operated in partnership with 
the AFA and consults with an AFA industry advisory board.

Workforce Challenges
Increased number of trained entry level job applicants
        There are many industry representatives telling us that there 
        are a lot of people out of work, yet there are not enough job 
        candidates with the entry level skills needed to pursue even 
        entry level aerospace manufacturing jobs. While engineering and 
        other long term skills are needed, a large number of in demand 
        jobs can be taught in relatively short time frames. People can 
        continue their education once they are employed, gaining 
        experience, and ultimately filling higher skilled job 
        positions.

Aging workforce
        The average age of aerospace employees is approximately 48. The 
        ``aging'' workforce will result in skilled aerospace workers 
        leaving the industry without skilled workers to replace them. 
        Although the aerospace manufacturing industry has many career 
        opportunities and ladders, today's youth appear to be unaware 
        of and/or disinterested in pursuing aerospace careers. There 
        needs to be increased recruitment of middle school, high 
        school, and young adults to the industry.

Delivery of training
        Training content and delivery needs to be consistent with 
        industry workforce demand, and the content must be industry 
        driven and continually changing. Training must be delivered 
        using state-of-the-art methods that increase student capacity 
        and learning. Training must be executed quickly with a high 
        level of retention. Training content cannot be static, but must 
        be continually reviewed and modified, if necessary, to ensure 
        it is cutting edge.

WATR Addresses the Challenges
Training developed conducive to industry needs
    WATR developed over 20 aerospace courses and a number of 
certificates requested by industry, including: Core Aerospace 
Certificate FAA Requirements; Quality Control; Lean for Aerospace, and 
Non-destructive Testing for Composites, among others.
    WATR has delivered these courses and certificates to meet industry 
demands: containing cutting edge and relevant content; promoting fast 
and intense learning; serving a larger number of students. Since 
opening in June 2010, WATR has been offering Core and Assembly 
aerospace certificates, on first and second shift. These certificates 
prepare students for jobs such as aerospace assemblers and aerospace 
manufacturers.
    The courses were developed to be delivered online through very 
innovative technology that has been welcomed by younger and older 
students alike. Through an intense online course of study, students are 
able to move through material when they have demonstrated their 
knowledge and they can repeat content that is challenging. Following 
demonstrated knowledge competency, the students participate in a month 
long hands on student learning experience to allow them to apply their 
skills. Students successfully navigate through the program in 12 weeks. 
Using this model, the Center has the capacity to graduate 180 students 
per month. With the Center's upcoming renovation and the expansion to 
third shift and weekend courses, the Center will have the capacity to 
graduate over 350 students per month, each earning two certificates and 
19 credits. To expand capacity and better meet industry needs, the WATR 
Center is partnering with Renton Technical College and other colleges 
to train more students statewide. In addition, the Center is offering 
the Aerospace Electrical Assembly Mechanic Certificate. Other trainings 
WATR has offered include the Applied Technology Manufacturing 
Certificate, the Composite Certificate; CATIA, Lean and Six Sigma, 
Quality Control, ESL in Aerospace Manufacturing, and ISO 9000.

Graduates
    As of August 31, 2011, 357 students have graduated with Core and 
Assembly Mechanic certificates. 347 of them have applied for jobs, 291 
of them have been interviewed, and 240 of them have received job offers 
(206 of whom are now working with the remaining in the process of 
undergoing background checks and drug analysis). Boeing has hired 190 
of the 206 employed graduates; other employers include TECT Aerospace, 
Flight Structures, Norfolk Naval Shipyard, Bridgeways Manufacturing, 
AMT, Terry's Machine Giddens Industries, Crane Aerospace, and Primus 
International. It takes approximately two to 3 months, once a person 
graduates to obtain employment in the aerospace field.

Demographics of WATR students
    Sixteen percent of the students were female; 33 percent non-white; 
and 24 percent were under the age of 25. Although, the demographics are 
encouraging with respect to the number of women and non-white 
populations, the numbers raise concern regarding the low enrollment of 
younger students, and the ``aging'' aerospace workforce. WATR has 
implemented several strategies to increase younger students:

    Cool Girls for Aerospace Project: In collaboration with the Boys 
and Girls Club, Senator Cantwell's staff, and the AFA, a ``Girls for 
Aerospace Project'' is being implemented in November 2011. The ``club'' 
will require the 13 to 15 year old girls to make a composite trinket 
tray, design and produce a personalized keychain using CAD and 
prototype machines, and make a paperweight using welding equipment. 
Throughout the training, the girls will view aerospace and 
manufacturing videos and be introduced to aerospace concepts.

    Marketing Campaign: In October 2011, WATR will launch an aggressive 
advertising blitz in the Alderwood Mall. The campaign may include 
hanging banners, table top inserts, a T-stand, and a barricade wall. 
The advertisements will be in the mall for 8-10 weeks targeting younger 
adults by using Generation Y themes and motivational concepts based on 
academic studies. During September and late October, WATR will be 
mailing out 44,000 postcards to residents throughout Snohomish and King 
County, advertising the WATR Certificate geared to younger adults using 
Generation Y marketing strategies.

    Marketing Videos: WATR has contracted with a video producer to 
develop several unique marketing videos--one designated to recruit high 
school students and young people and the other designed to recruit 
veterans.

    Scholarships for High Schools and Skill Centers: WATR is working 
with skill centers and high schools statewide to recruit transitioning 
students into the aerospace industry for employment. Thus far, WATR has 
met with Sno-Isle Skills Center and the Yakima Skills Center to develop 
agreements. WATR staff will meet with the City of Kent to replicate 
these agreements with the Renton Skills Center to offer aerospace 
certificate scholarships to high school students.

How the WATR Center is Reaching Out to Industry
    AFA industry led advisory board: The Aerospace Futures Alliance 
leads an industry advisory board that provides direction. AFA initiates 
quick turnaround surveys to evaluate the training needs and existing 
skill gaps of 650 aerospace suppliers. WATR meets with the advisory 
board regularly.
    WATR staff meets with the Boeing Company and other aerospace 
companies WATR staff meet with Boeing on a weekly basis to discuss 
training needs. (These meetings have been ongoing for 2 years.) 
Additionally, WATR staff provides regular tours, meets with industry, 
and industry comes to the WATR site to recruit and interview students 
and graduates. During all these interactions, companies are asked about 
their training needs and skill gaps.
    Curriculum and training is developed quickly using industry subject 
matter experts and delivered in a rapid and sustainable manner. 
Training is developed and delivered to increase capacity to meet 
industry demand needs--that it is industry driven and can be modified 
quickly to match the ever changing needs of the aerospace industry.

Challenges to the WATR Center
    Cost of program: The materials and supplies for students to 
participate in the lab portion of the certificates is extremely high 
because of the intense practice students are required to complete to 
gain the necessary competencies and skills. Because of the high costs 
and tuition, more funding is needed for the student loan program and 
student vouchers.
    This short-term training model has proven to be effective for both 
students and employers. It is an excellent example of education, 
industry, and government partnering to develop a skilled workforce and 
an established career pathway. Continuing to fund this important 
training will help keep the aerospace industry alive and well in 
Washington State.

    Senator Cantwell. So thank you. Thank you very much, Ms. 
Schaeffer.
    Ms. Schaeffer. Thank you.
    Senator Cantwell. Thank you for your testimony. And 
certainly, we will have questions.
    Mr. Dunlap, thank you for being here. Thank you for your 
leadership on this Department of Labor grant and coordinating 
that with the many institutions that are going to be receiving 
funds.

          STATEMENT OF JOE DUNLAP, Ed.D., PRESIDENT, 
                   SPOKANE COMMUNITY COLLEGE

    Dr. Dunlap. Thank you for the invite, Senator Cantwell.
    I am President of Spokane Community College, one of 34 
community and technical colleges within the state of 
Washington. And those community colleges support the 600 
aerospace manufacturers and suppliers. The community and 
technical college system is absolutely critical to that 
industry cluster for workforce development.
    Last year, 161,000 full-time equivalent students were 
enrolled in the community and technical college system, which 
is 20,000 more than they were funded for. And that equates to 
330,000 unduplicated head count students. Enrollment in 
science, technology, engineering, and math courses and programs 
over the past 4 years has increased by over 12 percent.
    And in October 2009, Governor Gregoire allocated $1.5 
million of her discretionary workforce investment funding to 
support the aerospace industry. In her directive, Governor 
Gregoire instructed the State Board for Community and Technical 
Colleges to distribute the funding for industry-driven training 
centers, new equipment, K-12 programs, curriculum alignment, 
and facilitation of transfer of research findings into training 
curricula.
    Recognizing that workforce development for the aerospace 
industry is critical to Washington's economic future, the State 
Board for Community and Technical Colleges, with assistance 
from the legislature, began to organize around that appeal. 
Funding was appropriated to establish the Aerospace Joint 
Apprenticeship Committee, two aerospace technology centers at 
the WATR Center and the Inland Northwest Aerospace Technology 
Center in Spokane. A 10th Center of Excellence, the Aerospace 
and Advanced Materials Manufacturing at Everett Community 
College was also established.
    With grant writing support from Everett Community College, 
Spokane Community College took the lead in organizing a 
consortium affectionately known as ``Air Washington,'' which 
consists of 11 community and technical colleges, the aerospace 
technology center in Spokane, the Center of Excellence for 
Aerospace and Advanced Manufacturing, the Aerospace and Joint 
Apprenticeship Committee, and regional workforce development 
councils, as well as employer partners, such as Absolute 
Aviation and the Boeing Company, to submit a grant proposal to 
support that industry cluster.
    The proposal was recently funded by the Department of Labor 
for $20 million for a 3-year period of time. And thank you, 
Senator Cantwell, for your support in that endeavor.
    The purpose of this grant is to research, develop, design, 
and implement state-of-the-art education, training, and support 
services necessary to meet Washington State's growing workforce 
demands identified by employer partners in the aerospace 
industry sectors, as well as to develop sustainable 
infrastructure to increase capacity for training aerospace 
workers in Washington State.
    Selected occupations that this grant will focus on include 
aircraft structure, surfaces, and rigging assemblers; 
machinists and computer numeric controlled machine tool 
operators; helpers for installation, maintenance, and repair 
workers; aircraft mechanics and service technicians; and 
electrical and electronic assemblers. More specifically, the 
Inland Northwest Aerospace Technology Center at Spokane 
Community College supports the aerospace industry in eastern 
Washington, which is expected to grow by 40 percent over the 
next several years.
    Spokane Community College offers the following aerospace-
related programs: aviation maintenance technology degree, which 
includes the FAA airframe and power plant certificates embedded 
into the curriculum, and there are five such programs in the 
State; electronics; hydraulics and pneumatics; machining and 
welding; and customized business and industry training.
    The following curriculum was recently completed this 
summer: AS 9100, Quality Assurance I and II, Coordinate 
Measuring Machine, CATIA Levels I and II, TIG Welding, Avionics 
and Job Performance Skills, and we conducted an aerospace 
summer camp for high school students as well. And a two-
quarter, short-term composite manufacturing certificate is 
under development.
    The Center of Excellence, located at Everett Community 
College, for Aerospace and Advanced Materials Manufacturing, 
serves as the State-wide liaison to business, industry, labor, 
and the State's educational systems for the purposes of 
creating a highly skilled and readily available workforce 
critical to the future of this economy.
    Significantly, the Center of Excellence produced a cross-
mapping of 22 community college and technical programs with the 
Boeing 32 job codes. And that will help create alignment with 
the curriculum based on industry needs. I have attached to my 
comments their most recent inventory of programs that are 
aerospace related at the community and technical college 
systems within the system, and this is available on the table 
outside.
    Again, I would like to thank you for the invite, and we 
appreciate your leadership in helping create aerospace jobs.
    [The prepared statement of Dr. Dunlap follows:]

          Prepared Statement of Joe Dunlap, Ed.D., President, 
                       Spokane Community College

    For many decades, Washington State has been a center of the 
aerospace industry, focusing around The Boeing Company and over 600 
aerospace and manufacturing industry supply companies statewide. The 
health of this critical industry is reflected in the economic health of 
Washington State and the ability of highly-skilled Washington workers 
to obtain high wage technical careers. Community and Technical College 
enrollment for 2010-2011 was 161,081 FTEs which is 20,000 FTEs over the 
funded target level; while headcount was 330,608 students served. 
Students enrolled in Science, Technology, Engineering, and Math (STEM) 
courses/programs have significantly increased over the past 5 years 
[see table below].

------------------------------------------------------------------------
                                                         Increase from
              Year                 STEM  Enrollments     previous year
------------------------------------------------------------------------
2006-07                                       4,049                 N/A
2007-08                                       4,190                3.5%
2008-09                                       4,573                9.1%
2009-10                                       5,079               11.0%
2010-11                                       5,697               12.2%
------------------------------------------------------------------------

    On October 19, 2009, Governor Gregoire allocated $1.5 million of 
her discretionary Workforce Investment Act (WIA) funding in support of 
the aerospace industry. In her directive, the Governor instructed the 
State Board for Community and Technical Colleges (SBCTC) to distribute 
the funding for: (1) industry-driven training centers, (2) new 
equipment, (3) K-12 programs, (4) curriculum alignment, and (5) 
facilitation of the transfer of research findings into training 
curricula.
    Recognizing that workforce development for the aerospace industry 
is critical to Washington's economic future, the State Board for 
Community and Technical Colleges, with assistance from the legislature, 
began to organize around the Governor's appeal. Funding was 
appropriated to establish: (1) the Aerospace Joint Apprenticeship 
Committee, (2) two aerospace technology centers; the Washington 
Aerospace Training and Research Center at Edmonds Community College, 
and the Inland Northwest Aerospace Technology Center at Spokane 
Community College, and (3) a tenth Center of Excellence [COE] for 
Aerospace and Advanced Materials Manufacturing at Everett Community 
College. An inventory of programs and courses taught at the 34 
community and technical colleges was developed. In addition, industry 
helped to identify knowledge, skills and abilities needed by the 600 
aerospace related manufacturers and suppliers.
    With grant writing support from Everett CC, Spokane Community 
College took the lead in organizing a consortium known as ``Air 
Washington,'' which consists of 12 community and technical colleges, 
the aerospace technology centers in Edmonds and Spokane, the COE for 
Aerospace and Advanced Manufacturing, the Aerospace Joint 
Apprenticeship Committee, and 14 regional Workforce Development 
Councils, to develop a comprehensive proposal supporting Washington 
State's aerospace industry. That proposal was recently funded by DOL 
for $20M over 3 years. The purpose of this grant is to research, 
develop, design and implement state-of-the-art education, training, and 
support service necessary to meet Washington State's growing workforce 
demands, identified by employer partners in the aerospace industry 
sectors; as well as to develop a sustainable infrastructure to increase 
capacity for training aerospace workers in Washington State. Selected 
occupations that this grant will focus on include: (1) aircraft 
structure, surfaces, and rigging assemblers, (2) machinists and 
computer numeric controlled machine tool operators, (3) helpers for 
installation, maintenance, and repair workers, (4) aircraft mechanics 
and service technicians, and (5) electrical and electronic assemblers.
    More specifically, the Inland Northwest Aerospace Technology Center 
[INATC], at Spokane Community College supports the aerospace industry 
in Eastern Washington, which is expected to grow by 40 percent over the 
next several years. Spokane Community College offers the following 
aerospace related programs: (1) Aviation Maintenance Technician degree 
that includes FAA Airframe and Powerplant certificates embedded into 
the curriculum [there are five such programs in the state], (2) 
electronics, (3) hydraulics and pneumatics, (4) machining, (5) welding, 
and (6) customized business and industry training. Future plans call 
for the establishment of flight training, air traffic control, and 
dispatcher programs.
    The following curriculum was recently completed this summer: (1) AS 
9100, (2) Quality Assurance I & II, (3) Coordinate Measuring Machine, 
(4) CATIA Level I & II, (5) TIG welding, (5) Avionics and Job 
Performance Skills, and (6) an Aerospace Summer Camp for high school 
students was conducted. A two-quarter, short-term composite 
manufacturing certificate is under development.
    Once 5.4 acres of land has been transferred from the Washington 
Military Department, INATC will relocate from Felts Field in Spokane to 
the Spokane International Airport to be more centrally located and 
better able to serve the emerging aerospace workforce in Eastern 
Washington.
    The Center of Excellence [COE] for Aerospace and Advanced Materials 
Manufacturing, located at Everett Community College, serves as the 
statewide liaison to business, industry, labor and the state's 
educational systems for the purpose of creating a highly skilled and 
readily available workforce critical to the success of industries 
driving the state's economy and supporting Washington families. 
Significantly, the COE produced a cross mapping of all 22 Community and 
Technical College aviation, aerospace, and advanced manufacturing 
programs to the 32 Boeing Job Codes. This alignment is shared with the 
state high schools to facilitate their curriculum alignment with 
college curricula.
    Attached is an inventory of community and technical college 
aerospace programs throughout the State, prepared by the COE, as well 
as an aerospace manufacturing career tree.
                             Attachments: 2
    Washington State's Aerospace and Advanced Manufacturing Education 
and Training Organizations<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ This report can be found at http://www.a2m2.net/resource-guide.
---------------------------------------------------------------------------
    Aerospace Manufacturing Career Tree
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Cantwell. Thank you, Mr. Dunlap.
    Next, we will hear from Ms. Laura Hopkins, who is with the 
Aerospace Joint Apprenticeship Committee. Thank you.

STATEMENT OF LAURA HOPKINS, EXECUTIVE DIRECTOR, AEROSPACE JOINT 
                    APPRENTICESHIP COMMITTEE

    Ms. Hopkins. Thank you for the opportunity to speak with 
you today.
    My name is Laura Hopkins, and I am the Executive Director 
of the Aerospace Joint Apprenticeship Committee, commonly known 
as AJAC. Our organization was created in 2008 with funding from 
the State of Washington to address the aerospace and 
manufacturing sectors workforce shortage issues.
    In these industries, employers have been looking at the 
reality of over 50 percent of their workforce being eligible to 
retire and a lack of younger generations getting trained in the 
skilled trades. Examples of the occupations we are talking 
about are machinists, FAA-certified aircraft mechanics, 
composites technicians, and aircraft interiors technicians.
    We currently have programs in King, Pierce, Snohomish, 
Spokane, and Franklin Counties and work with over 90 employers 
across Washington State.
    One of the significant challenges brought on by these 
retirements of these trades people, that they are craftsmen and 
women who have honed their skills in these trades with years of 
experience. They are the employees who bring the utmost benefit 
to their employers by performing with the greatest amount of 
accuracy, efficiency, with the least amount of waste and 
defective parts. They know more than how to push a button. They 
know why and when they are pushing a button.
    It is imperative that employers have an avenue to capture 
the knowledge of these retiring trades people and pass that 
knowledge on to the next generation. We are short on time to do 
this. As more and more people are retiring, the expertise of 
these trades are leaving a void that will be nearly impossible 
to recapture, and it involves the loss of the art of the trade 
itself.
    It is with this sense of urgency that AJAC was created and 
has been working to address the needs of the aerospace and 
manufacturing sector in Washington State. Although AJAC was 
created for the aerospace industry, we have been serving other 
manufacturing sectors as well. Because aerospace requires the 
highest level of precision machining, we can train people in 
other sectors, such as medical devices, marine technology, and 
such, to the aerospace standards; whereas, we can't do that the 
other way around.
    So, how does our apprenticeship model work? Most of our 
apprenticeships are multi-employer programs. Ninety-three 
percent of the apprenticeship program happens on the job. The 
apprentice goes to work 40 hours a week and is connected with 
one or more mentor on the worksite who transfers their 
knowledge to them.
    In this manner, they learn the most relevant knowledge, and 
they are trained on state-of-the-art equipment. Then one night 
a week, those apprentices come together at school to learn the 
theory behind everything they are learning on the job.
    The beauty of a 21st century apprenticeship model like AJAC 
is that it provides the connection between experienced worker 
and the new person, as well as providing such support services 
as veterans support services, interim certificates, and perhaps 
most importantly, college credit that is transferable onto 2- 
and 4-year degree programs.
    In the apprenticeship manufacturing sectors, there is a 
skill gap. Employers need skilled workers, and unemployed 
people need jobs. In order to address this skill gap, we have 
partnered with local workforce agencies to create something 
called the ``manufacturing academy.'' This preemployment 
training program is an intensive, full-time, 8-week program 
where students are introduced to the manufacturing sector and 
learn the basics of safety, hand tools, and mechanical skills.
    Fundamental to the whole program is that the students are 
introduced to a new career pathway, and they get to learn and 
practice the skills that will help them get jobs in the 
manufacturing sector. Employers are behind the idea from the 
beginning, and they are ready to hire the graduates into entry-
level jobs, and then they put them into an apprenticeship 
program to further their education and training.
    Apprenticeships are not just about giving some training. 
Apprenticeships are the vital connection between education, 
workforce development, and economic development. The cost for 
State and Federal agencies to run apprenticeship programs is 
much less than traditional education programs because the 
employers assist in covering the cost of the education.
    When people become apprentices, they are full-time 
employees who earn a wage, which increases over time to a 
family wage job as they become more productive. They receive 
medical and other benefits, no longer needing to rely on the 
State or Federal agencies for assistance while they are getting 
their education. This then gives them the ability to stimulate 
the economy by putting their income back into their 
communities.
    People who build and maintain aircraft generally are not 
purchasing their own product. They may not be able to afford an 
airplane. However, they may be able to afford an airplane 
ticket or eat at a restaurant at a local airport or buy a 
trinket at a tourist destination, again stimulating the 
economy.
    Apprenticeships--so, finally, apprenticeships are not just 
about giving someone an education. They are the vital 
connection between education, workforce development, and 
economic development. They are about empowering people to be 
autonomous and giving them education and career pathways in 
good, solid, family wage jobs.
    The U.S. lags far behind other nations in apprenticeship 
funding and utilization. If we hope to maintain our edge over 
other nations, we must capture and not lose the art of these 
trades themselves.
    Thank you very much.
    [The prepared statement of Ms. Hopkins follows:]

       Prepared Statement of Laura Hopkins, Executive Director, 
                Aerospace Joint Apprenticeship Committee

    Thank you for the opportunity to speak with you today. My name is 
Laura Hopkins and I am the Executive Director of the Aerospace Joint 
Apprenticeship Committee, commonly known as AJAC.
    Our organization was created in 2008 with funding from the State of 
Washington to address the aerospace and manufacturing sector workforce 
shortage issue. In the aerospace and manufacturing sector, employers 
have been looking at the reality of over 50 percent of their workforce 
being eligible to retire and a lack of younger generations getting 
trained in the skilled trades. Examples of the occupations we are 
talking about are Machinists, Aircraft Mechanics, Aircraft Interiors 
Technicians, and Composite Technicians.
    One of the significant challenges brought on with retirements in 
the aerospace and manufacturing sectors is that these retiring 
tradespeople are crafts men and women who have honed their skills in 
the trade through years of experience. They are the employees who bring 
the greatest benefit to the employers by performing with the greatest 
amount of accuracy, efficiency and with the least amount of material 
waste and defective parts. They know more than how to push buttons; 
they understand why and when they would push certain buttons. They are 
capable of listening to the machines; know how to troubleshoot and 
adjust the equipment as needed. The deficiency brought on by these 
retirements is much more than just technical knowledge that can be 
easily taught. It involves the loss of the art of the trade itself.
    It is imperative that employers have an avenue to capture the 
knowledge of the retiring trades-people and pass that knowledge on to 
the next generation. We are short on time to do this as more and more 
people with the expertise of the trades are leaving a void that will be 
nearly impossible to recapture. It is with this sense of urgency that 
AJAC was created and has been working to address the needs of the 
aerospace and manufacturing sectors in Washington State.
    Although AJAC was created for the aerospace industry we have been 
serving other manufacturing sectors as well. Because aerospace requires 
the highest level of precision machining, we can train people in other 
sectors such as medical devices and marine technology to the aerospace 
standards whereas we cannot do that the other way around.
    So, how does our apprenticeship model work? Most of our 
apprenticeships are multi-employer programs. 93 percent of an 
apprenticeship program happens on the job. The apprentice goes to their 
respective job site for 40 hours a week and is connected with one or 
more mentors who transfer their knowledge to them. In this manner they 
learn the most relevant knowledge and are trained with state-of-the-art 
equipment. Then one night a week the apprentices come together at 
school to learn the theory behind everything they are learning on the 
job. The beauty of a 21st century model apprenticeship program like 
AJAC is that it provides the connection between the experienced worker 
and the new person, as well as providing things such as veterans 
support services, interim certificates and college credit transferable 
to 4-year university programs.
    In the aerospace and manufacturing sectors there is a skills gap. 
Employers need skilled workers and unemployed people need jobs. In 
order to address the skills gap we have partnered with local workforce 
agencies to create something called the Manufacturing Academy. This 
pre-employment training academy is an intensive, full time, 8 week 
program where students are introduced to the manufacturing sector and 
learn the basics of safety, hand tools and mechanical skills. 
Fundamental to the whole program is that the students are introduced to 
a new career path and they get to learn and practice the skills that 
will help them get jobs in manufacturing. Employers are behind the idea 
from the beginning and are ready to hire graduates of the program into 
entry level jobs, who then progress into an apprenticeship to further 
their education and training.
    Apprenticeships are not just about giving someone some training. 
Apprenticeships are a vital connection between education, workforce 
development and economic development. The cost for State and Federal 
agencies to run apprenticeships is much less than traditional 
educational programs because employers assist in covering the cost of 
the education. When people become apprentices they are full time 
employees who earn a wage, which increases to a family wage level as 
the apprentice becomes more productive. They receive medical and other 
benefits and no longer need to rely on state or Federal agencies for 
assistance. This gives them the ability to stimulate the economy by 
putting their income back into their communities. People who build and 
maintain aircraft generally are not purchasing their own product. They 
may not be able afford to buy a plane; however, they may be able to 
afford an airplane ticket, and eat at the restaurant in the airport and 
buy a trinket at a tourist destination--again stimulating the economy.
    I want to leave you with this thought; Apprenticeships are not just 
about giving someone an education. Apprenticeships are a vital 
connection between education, workforce development and economic 
development. Apprenticeships are about empowering people to be 
autonomous and giving them education and career pathways in good solid 
family wage jobs.

    Senator Cantwell. Thank you.
    And our last panelist, Mr. Tom McCarty. Thank you so much 
for being here. We have saved the best for last, and thank you 
for your work with the Society of Professional Engineering 
Employees in Aerospace.
    Thank you.

 STATEMENT OF TOM McCARTY, PRESIDENT, SOCIETY OF PROFESSIONAL 
               ENGINEERING EMPLOYEES IN AEROSPACE

    Mr. McCarty. Well, thank you for inviting me, Senator 
Cantwell.
    When I first received the invitation and read over the 
request, I am not an educator, and I thought, ``What can I 
bring to this hearing?'' And I represent 25,000 aerospace 
professionals in California, Kansas, Oregon, Utah, Texas, and 
Washington, and I have personally worked as a Boeing engineer 
for over 38 years.
    I meet with the people I represent every day. I meet with 
new hires, young engineers and technical workers just out of 
school. I meet with mid-career professionals and people that 
have had almost 40 years in the workplace, such as I have had, 
and will soon be leaving the workplace.
    And when I step back and look at this, I think about what 
are the challenges, what are the issues, what should we be 
doing in the next few years to maintain this profession and, in 
fact, more than one profession, all of these professions of the 
professionals I represent?
    I look at all of this and I think I need to make it as 
simple as I can. It is about the jobs and what we do with these 
jobs every day and how we can maintain our skills.
    We talk a lot about we need to update our skills, and as a 
member of technical profession, we really are on the front line 
of that. We realize this more than everybody how fast and how 
incessantly the technology progresses.
    When I started as a young engineer, almost 40 years ago, 
there were no personal computers. It was unheard of. And now 
there are PCs on every desk, and as we have heard, students now 
coming, graduating and coming into the workplace, they are very 
familiar with this form of technology. But the important thing, 
again, which we have heard, is that we have to have 
fundamentals, and they haven't changed.
    And being the last speaker, I have had to make some notes 
because people have covered some of the things I wanted to, and 
I wanted to add a few things that weren't covered. But the 
fundamentals are important because unless a worker has a 
fundamental understanding of how to make measurements, what 
physics mean, what electricity means, how heat is transferred, 
they are not going to have the understanding to participate in 
today's technical professions. And I represent engineers, 
scientists, technical workers, and pilots now at the Boeing 
Company.
    When I look back, how did I get interested in that? I was 
caught up in the transformation of what I consider the modern 
era, and I consider the modern era starting when I was born.
    [Laughter.]
    Mr. McCarty. And I looked up, as an eighth grader, and I 
saw the Sputnik, the light streak across the sky. And there was 
a huge transformation in American education and industry that 
that brought forth because people had a real, palatable fear 
that we were going to lose the space race to the Russians.
    I mean, this was something talked about every day in the 
press and in conversation and in our schools. So there was a 
resurgence in what we now call the STEM core curriculum, and I 
took advantage of that. I was very fortunate, and I was able to 
go to a community college. I went to a technical institute when 
I graduated from high school, and I got an associate's of arts 
degree in electrical technology.
    And I went to work at Bell Telephone Laboratories, and by 
virtue of tuition matching, which was industry's support, I was 
able to complete my engineering degree at Monmouth University 
funded by my employer. Those were really important things then, 
and they are really important now.
    And I know at Boeing, we still have partnering with funding 
both undergraduate and graduate degrees, and part of the 
testimony--I have used my 5 minutes.
    [Laughter.]
    Senator Cantwell. Now there is a good engineer for you.
    [Laughter.]
    Mr. McCarty. I brought my own timer. And I didn't realize I 
used my 5 minutes.
    But I did want to say this. We, the members I represent--in 
summary, we are critically aware of the need to maintain our 
skills. Our professions require us to stay on the edge of 
technology. We are appealing to both the educational system and 
the employers to be active participants in maintaining these 
skills.
    We want to be participants. We use our own money. We invest 
our own time to maintain and improve these skills, and I think 
this partnership is absolutely essential if the American worker 
is going to maintain our position as the technology leaders in 
the global economy. We have to do that, and what was that? 
Failure is not an option.
    So, in conclusion, I want to emphasize that we are willing 
and able to do this, but we need the help of Government and 
educational institutions to foster and support this continuing 
learning that we are going to require.
    Thank you, Senator Cantwell.
    [The prepared statement of Mr. McCarty follows:]

             Prepared Statement of Tom McCarty, President, 
       Society of Professional Engineering Employees in Aerospace

    My name is Tom McCarty and I am the President of the Society of 
Professional Engineering Employees in Aerospace. We represent more than 
25,000 aerospace professionals in California, Kansas, Oregon, Utah, 
Texas and Washington. I've personally worked as a Boeing engineer since 
1973.
    I'm here today to testify about the importance of scientific, 
technical, engineering and math education to our Nation's national 
security and economic future.
    The Space Race and the Cold War both served to focus national 
attention and national resources on scientific, technical, engineering 
and math education. Public investments created private sector 
employment and a workforce equipped for those jobs. The resulting 
growth in technological advancement put men on the moon, won the Cold 
War and produced technology that has transformed the world.
    I was caught up in that transformation. And I have a clear memory 
as an 8th grader of watching the Russian Sputnik satellite streak 
across the night sky in October fifty-five years ago. American schools 
took up the challenge across the country. There was a universal 
commitment that we had to catch up with the Russians and that resulted 
in a new emphasis on mathematics and science education our schools. I 
personally benefited from that transformation and I was one of the 
thousands and thousands of students who were able to receive an 
affordable education as the result of public funding and corporate 
sponsorship.
    American society has been reaping the benefits of these investments 
for decades. However, our Nation is at risk of losing its preeminent 
position in the global economy due to the changing demographics of the 
aviation workforce. In short, we're getting old. I'll speak 
specifically of the workforce that my union represents but the trends 
are generally applicable to the entire aerospace industry. Nearly 40 
percent of the engineering workforce at Boeing will be eligible to 
retire in the next few years. As this workforce moves into retirement, 
it's not just their bodies that leave. The baby boomer retirement also 
represents a tremendous migration of intellectual capital out of the 
aerospace workforce.
    America's position as the premier manufacturer of consumer goods 
has been seriously challenged in the last 50 years. Now our position as 
the high-technology aerospace supplier is threatened by credible, 
emerging high-technology development and manufacturing capability in 
South America and Asia. One of the larger markets for our high-
technology output has been China. But for the past two decades, China 
has been aggressively implementing a plan to become a high-technology 
manufacturing leader in its own right. Whether we know it or not, we 
are engaged in a technology race that replaced the arms race once 
dominating our technology development. And just like the arms race, 
this is not a contest we can afford to lose. The consequences of that 
would be equally unacceptable for us and our children.
    Our employers generally recognize the need for continuing employee 
training. We need to work with them to insure these programs will 
continue to be funded. We need to help develop programs and policies to 
ensure education and retraining funding is available to the workforce 
on a continuing basis. Engineering and technical workers have made a 
serious commitment of their own resources to acquire and maintain their 
technical skills. It is vital to maintain our ability to compete. We 
cannot do this unless we help these workers maintain the technical 
capabilities of our American workforce.
    A critical factor enabling the economic growth of this Nation was 
the commitment of society to fund universal education. The labor 
movement always recognized the importance of education and training and 
fought for universal education. In 1900, the goal was a literate 
workforce. A workforce of high-school graduates was considered more 
than adequate for the shops and mills at the turn of the century. That 
this is no longer sufficient for a high-tech workforce has been evident 
for quite awhile. Today, we see an alarming trend to reduce public 
funding for education at the very time we can least afford it.
    It is once again time for the American labor movement to pressure 
the public and private sectors to adequately fund the education of the 
American worker. It is not acceptable that qualified students are 
denied entry into our state universities for lack of funding.
    Our members are passionate about education. We have become a 
stronger and more effective force for change through our collective 
action. SPEEA members are already making their concerns known and are 
working for a better future. We serve on college advisory boards, we 
are members of school boards and volunteers from K-12, and we teach 
graduate courses at universities. We are partnering with our employers 
to provide more career growth opportunities in the workplace.
    The ability of American industry to compete is based on the 
investment in the American workforce. Technology is a moving target. 
Unless we constantly learn new skills and new ways to think about how 
we create our products, we will lose our ability to compete. This 
learning process has to be accomplished by actually designing and 
building aerospace products. The knowledge we bring to the job is only 
the starting point. That ability is refined and developed by the 
collaborative environment of problem-solving in the workplace.
    When technical work is outsourced, this begins the process of 
losing capability in that area which was outsourced. If this was not 
bad enough (and of itself it is), it gets worse because while our 
workforce is losing this opportunity to grow its skill base in this 
area, somewhere else, the workforce is now advancing its capability. In 
effect, we are falling behind at twice the rate. It's not hard to 
imagine that soon we will have created a self-fulfilling prophecy. We 
will need to outsource the work because someone else can do it cheaper, 
faster or better.
    There is a critical mass of talent associated with a particular 
product or service. When that mass is achieved, a self-sustaining 
organization is created. New people join and bring new ideas and 
skills, and they are integrated into the experience base of the 
organization. In return, the experienced people share the specialized 
knowledge acquired over decades of product development and manufacture. 
This model has served American manufacturing very well, but now it is 
at risk. Outsourcing of the traditional work disrupts the flow of 
information and experience in both directions. The experienced workers 
lose the exposure to the emerging technologies, and the new workers do 
not get the full benefit of the tribal knowledge held by the 
experienced workers. When work is selected for outsourcing, these 
factors need to be carefully considered or the technical and innovative 
capabilities of the workforce can be drastically impacted.
    The solution is going to take teamwork. The players are the 
employee, business, schools and government--each has a critical role. 
It's necessary for all of us to understand that role and become active 
partners in finding those solutions if we are going to preserve our 
position of leadership in high technology manufacturing.

    Senator Cantwell. Thank you.
    Well, this is--go ahead and give him an applause because 
I----
    [Applause.]
    Senator Cantwell. I just feel that the passion that you all 
have expressed is exactly what I need to share with my 
colleagues and others in the State of Washington to get them to 
understand that this is a critical moment and that aviation has 
a bright future, but that we have to prepare for it. And 
certainly, we have job openings, but we have to fill the skills 
gap.
    And all of you are articulating some of those tools and 
things that we need to sharpen our focus on to make sure that 
that really happens so that our State continues and the Nation 
continues to be a leader in aviation manufacturing.
    I wanted to start with you, Ms. Gilman. You mentioned the 
FAA being a better partner. And you were reminding me that NOAA 
has a program that is a sea grant fellow program, where they, 
through NOAA, help in the education and support of those people 
who are interested in coastal resource issues, and maybe we 
should be looking at something similar with the FAA.
    But we are about to, hopefully, reauthorize the new FAA 
bill and the next-generation system, and you were talking about 
formalizing the relationship even more. What did you have in 
mind besides something that would help with internships and 
programs? What are you looking for?
    Ms. Gilman. We are looking for the people expertise that 
can share the knowledge and skills that they have had 
throughout a career. There is a gentleman who has come to our 
school, has been involved since the day we started. The depth 
of his knowledge in aerospace and engineering and what he can 
share with us is vastly different than the capacity we have on 
our staff.
    We would like to have those people sitting with us every 
day to share that knowledge and expertise and help us think 
about where we should be going. As most people in this room 
today have talked about, staying on the cutting edge, the 
bleeding edge, I think it is important for us.
    And in education, reform moves quite slowly. And unless you 
have the industry partnerships and those who really know from a 
policy perspective, like they do at the FAA, I think we are 
slower to respond to those emerging needs.
    Senator Cantwell. Well, certainly, with the Next-Gen 
system, you would say that that would be a key opportunity with 
all of that. I mean, that is probably the biggest 
transformation on the Federal side in aviation in 30 or 40 
years. And so, to have a good partnership then on how that 
delivery system and how the education would work would be very 
important.
    Ms. Gilman. Absolutely. Our students will be part of a 
workforce that is very much changing. Right now, we have a 
number of graduates who want to work in unmanned aircraft 
systems, and we need to know more about it as educators so that 
we can prepare our students to go into those areas.
    Senator Cantwell. And what about Ms. Schaeffer and others 
that mentioned this issue about fundamentals? I mean, Mr. 
McCarty talked about it as well. You are seeing students in 
your high school. Are they coming with a higher interest or 
skill level in those fundamentals, or are you having to teach 
those fundamentals in a way that is helping some of those 
students to really step up?
    Ms. Gilman. Well, I think that the student body at Aviation 
High School, it is a cross-section that you would see in most 
public schools. I think the inspiration is to grapple with 
really complex problems that engineers, machinists, others are 
experiencing in the workforce so that they can solve those 
kinds of problems.
    Senator Cantwell. So----
    Ms. Gilman. I wouldn't say they all come with the 
inspiration to do high-level work. But certainly, when you ask 
them to build a product, develop a heat shield, or to test the 
structural integrity of a wing beam, and you present that, you 
require students to present that to industry experts, that 
becomes your high-stakes part of learning.
    And students want to do better when they know that the 
people they would like to be like are assessing their work and 
giving them feedback.
    Senator Cantwell. So that is on the inspiration side. Back 
to the fundamental side, Ms. Schaeffer, were you saying that at 
the entry-level, some of these people are coming in even for 
these 2-year certificate programs without the entry-level 
skills that you are looking for to put them into these 
certificate programs?
    Ms. Schaeffer. The certificate programs, to have two 
certificate programs completed takes 12 weeks. We are finding 
that probably half of the students do not have the fundamentals 
of math. So we do an intensive math learning with the students.
    We find that once the students are in the certificate, once 
they are in it, they are passionate about airplanes. Then 
learning math and some of the other fundamentals becomes 
something more desirable for them to learn, and they grasp it. 
With the addition of the online learning, they can repeat it 
and do remedial learning.
    Senator Cantwell. So what is the entry-level math that you 
put them through before you get them into the certificate 
program?
    Ms. Schaeffer. They come into our certificate program with 
a high school diploma or a GED requirement, and we train them 
for the math if they don't understand the math concepts.
    Senator Cantwell. And what does that mean, you train them 
for that?
    Ms. Schaeffer. We train them on the basic fundamentals, 
decimals, fractions----
    Senator Cantwell. Within the certificate program, you are 
saying?
    Ms. Schaeffer. Yes. Yes.
    Senator Cantwell. OK. OK. And what do you think about that, 
Laura? What are you seeing in the apprentice program on that 
same issue of fundamentals?
    Ms. Hopkins. Yes. We have the same dilemma. We have 
employers who are ready to hire, and they are trying to find 
people. In fact, today, I have an employer up in Snohomish 
County is looking for 20 employees. Another one is looking for 
15, and they are coming to us, saying ``can you help us find 
good candidates for these positions'' because they are having a 
hard time finding folks who have the fundamental skills.
    So what we are looking at doing right now with that 
particular group of employers is running our manufacturing 
academy. They are actually looking at paying us to run one of 
our manufacturing academy programs, which will teach the 
fundamentals. Everything from safety to manufacturing basics--
so it is not just the math, but it includes math, physics, and 
also basic hand tool usage. Because most of the folks, as 
somebody mentioned, they don't grow up working in their garage 
anymore. So they don't even know how to use a drill or a 
bandsaw or anything like that.
    So, in our manufacturing academy, we have this opportunity 
for them to learn all those fundamentals. We are able to 
identify who the really hard-working folks are and who are 
really determined to do this kind of work and who have the 
mechanical aptitude. And then we place them directly into these 
jobs.
    As soon as they get hired, then they join the 
apprenticeship program. It is an ongoing career path, where 
they can start with having no skills and end up being a master 
mechanic.
    Senator Cantwell. So, Jim, we are missing something here on 
this shop side, aren't we? I know a young person who just told 
me the other day, who was very good at building and shop, and I 
said, ``How come you are not taking more classes?'' And it 
really is that it is very hard for them to continue that. They 
don't really have the choice.
    I mean, is there something we should be doing, Ms. Gilman? 
I mean, you are seeing this in one high school. But are there 
other things that we could be doing at other high schools to 
stir the interest?
    Ms. Gilman. Thank you for asking that. I loved your 
comments about shop class because--and it just reminds me that 
if we don't provide the inspiration during the high school 
years--sooner would be nicer--that we don't get people who end 
up in the industries for which we need their skills and their 
knowledge.
    Shop at Aviation High School could be in an English class. 
It could be in any class there because we don't use the concept 
of--the context of aviation and aerospace just to be in a class 
where they may be building an airplane or trying to figure out 
how to engineer something, innovate something new. But that 
context is spread throughout the entire curriculum.
    So students might be designing a set to perform Macbeth 
here on this stage at the Museum of Flight using an aviation 
context, and they still can learn the types of skills that you 
were referring to. I was a technical educator for many years, 
and I realized that you have to blend the two. It doesn't 
happen just in isolation.
    And I think that Laura and Ms. Schaeffer and everyone who 
has spoken here today would love to have students come to them 
that they could accelerate rather than remediate. And as a 
skills center director, that spoke to me and seeing students 
come, as juniors and seniors, who were not prepared to do the 
kinds of work. They didn't have the math/science backgrounds 
that they needed to do.
    They didn't understand that if you want to be a world-class 
chef, you do have to know math. And so, I think you can do it 
in other schools if you make a context run across the 
curriculum rather than separating it.
    Senator Cantwell. Back to the overall apprentice numbers. 
How many job openings do you think that we have right now that 
could be filled by apprentice? I mean, what do you think the 
demand is for----
    Ms. Hopkins. That is a really great question. I think right 
now, currently, we have over 90 apprentices in the system, and 
we are growing like crazy. We have actually tripled in size 
this summer and are expecting to do similarly by winter 
quarter.
    So, in terms of the numbers, we know that we have the 
capacity for thousands. Right now, the big hurdle for us is 
around the economy because with an apprentice, they have to get 
hired. So an employer has to invest in this person enough to 
actually hire them on, give them benefits, and all that. So it 
is easy--it is not so simple as someone just going to college.
    So, as the economy has started to shift, in the 
manufacturing sector, we are seeing more and more employers who 
we have been talking to for the last 2 years suddenly say, OK, 
now I am ready. I am actually hiring. Let us put people in.
    And so, we are expecting to grow. But we definitely have 
the capacity to do thousands of apprentices, and we think the 
employers are out there. We already have those partnerships 
that are growing.
    A lot of these folks that we are working with have never 
thought of apprenticeship before. It seems like something they 
would have been involved in in the manufacturing sector, but 
they haven't been. So we are actually introducing them to the 
concept of what apprenticeship is, how it works, and kind of 
trying to work them through some of their fear issues around 
Government getting involved in their business.
    And once we get those issues resolved, we are able to help 
get them on. And so, what has happened now is we have had 
employers who participated, put in one or two. They have tried 
it out. They have seen that it is good. They are putting more 
in, and they are talking to their colleagues about 
apprenticeship programs. So it is growing quite rapidly now.
    Senator Cantwell. So you would have said that the demand 
could have been there sooner, but now employers really feel 
like they are in that hiring sprint that they now they wish----
    Ms. Hopkins. Right.
    Senator Cantwell.--there is more demand?
    Ms. Hopkins. Yes, exactly.
    Senator Cantwell. So if we would have had it timed 
perfectly 2 years ago, we would have accelerated. Is that right 
or----
    Ms. Hopkins. Well, we started 2 years ago, but the 
employers couldn't hire. Because of the economy, they were 
actually laying off. So they weren't in a position, even though 
when we would go out there and talk to these employers, they 
would look out at their shop, and they see all these folks with 
gray hair who they know are their last remaining folks who know 
how to work on this machine, on these processes.
    But they couldn't replace them, as much as they wanted to, 
because they were just trying to survive. So they would say, 
please, help us. And we would say we would love to, but you 
have to hire somebody in order to put them in the 
apprenticeship program. That was the great catch-22 that we 
were in. And now that we are seeing a shift in the 
manufacturing sector where they are starting to pick up now, 
slowly but surely, then they are putting them in.
    So in terms of what would help us be able to put more 
people in, one of the things that we are going after in 
Washington State is a tax incentive for employers every time 
they hire an apprentice they would get a $5,000 tax incentive 
for doing so. And our employers that we have talked to said 
that that would be significant for them.
    Of course, that is at a State level at this point. But that 
is what we are trying to put forth for the next session.
    Senator Cantwell. And Mr. Dunlap, Ms. Gilman talked about 
spreading the Aviation High School to other parts of the State. 
You are seeing these potential workforce candidates at the 
certificate level. What do you think about that as it relates 
to Spokane?
    Dr. Dunlap. Yes, I think that is an excellent idea. In my 
experience, when you can contextualize education, it becomes 
far more meaningful for students, and they can make connections 
to the real world. And so, an aviation high school does 
precisely that.
    There are other magnet-type high schools that do that in 
other disciplines, but I think there is a great opportunity to 
get young people interested in the aerospace industry cluster 
by starting at an earlier age. And so, I think it is a great 
idea to expand the concept of aviation high schools throughout 
the State.
    Senator Cantwell. OK. And one note, I know that part of the 
Department of Labor grant will focus on helping the education 
and training of returning veterans. But is there more to be 
done there? Since there is a good, trained skill set already 
there with our veterans, having so many of them returning 
creates an opportunity to focus on how to upgrade their skills 
to meet the demand that is being sought right now in aviation. 
Would that be a very good thing to do?
    Dr. Dunlap. Yes, and Laura is actually working on a portion 
of that as well. One of the difficulties for our returning 
veterans is that while they may have worked and acquired 
aviation-related skills, they don't receive the FAA 
certification for that while they are in the service.
    And so, when they get out of the service, there is no 
formal process or easy process for them to take those skills 
and then get FAA certification for those. And oftentimes, they 
are told they have to start from the beginning. And in other 
instances, they may be given some credit for the schooling that 
they have learned.
    And so, that is one of the things of that we are trying to 
tackle, and Laura can address that as well, I believe, in terms 
of how do we provide a system for veterans so that they receive 
the credit for the training and experience they had in the 
service.
    Ms. Hopkins. Yes. Just to expand on that a little bit, in 
today's world, the FAA has a system by which if you go to an 
A&P school or an airframe and power plant school, you can then 
apply to take a test to get your airframe and power plant 
license. You can also apply to take that test with work 
experience.
    However, you have to have a certain kind of documentation, 
and it has to be documented in a certain way. And so, what is 
happening today is people are coming out of the military 
without the same documentation standards that the FAA requires 
in order to meet those--be able to go, apply to take that test.
    And so, you may have people coming out of the service who 
both have the same experience level, but when they go to the 
FAA, depending on who the FAA person is interpreting that, they 
could interpret it different ways. So there is two pieces to 
this.
    One is that the military doesn't provide the proper 
documentation that they need by the time they leave service. So 
that is the first piece. And the second piece is that when they 
do finally arrive at the FAA, there isn't a standardized 
documentation system in place. So there isn't a thing that 
says, OK, if you have done this, this, and this, and it looks 
this way, you will then be able to go, take your airframe and 
power plant.
    So it really is up to the FAA inspector. So if you show up 
1 day and you get Joe, they may allow you to go take both your 
airframe and power plant tests. You show up the next day and 
you get Susan, you may have to go back to A&P school for 2 
years. And it is up to that inspector you happen to run into 
that time.
    Senator Cantwell. Well, with the number of returning 
veterans, that would be something that I think would be easy to 
fix. I am not saying anything at the FAA is easy to fix, but--
--
    Ms. Hopkins. Right.
    [Laughter.]
    Senator Cantwell. I am saying that it seems that if you 
could agree on what that standardization is, that you can set 
up a system, right? Is that correct? Because you are talking 
about somebody who is an aviation mechanic in the military. So 
different aircraft, different structure, but very similar 
backgrounds.
    Ms. Hopkins. Right. There are a couple of tricky things to 
this. One is that because the airframe and power plant license, 
the way that they are structured, when you go to take your 
license, you have to test on every type of aircraft. So small 
aircraft to large aircraft.
    Most of the folks coming out of military only have 
experience working on large aircraft. But there is a Federal 
aviation regulation that states that you can't combine work 
experience and education together to be able to qualify to go 
take your test.
    So the military people coming out of service can't go to 
the FAA and the FAA say, OK, you just have turbine experience--
you haven't had experience working on reciprocating engine. Go 
back to school just for that. Instead, they have to tell them 
start over.
    Senator Cantwell. So what would the solution be in that 
instance?
    Ms. Hopkins. Right. If they could change the law so that 
they could go to the local community college and just take the 
piece of--the section of class that they just need and not the 
entire 2 years, that would be--that would transform the 
aviation education experience. It is an antiquated law that 
makes no sense in today's world, but it still exists.
    Senator Cantwell. OK. Great.
    All right. Anything else from the panelists? You guys have 
been great today. Thank you so much for your work in this area.
    Any final comments that anybody wants to make? I gave the 
first panel an option. You guys were so inspirational, I don't 
know that I need to ask the same question. But I will ask a 
different one. If there was one thing that we could do that 
would be helpful, what do you think that would be as it relates 
to preparing this workforce and to helping you do your 
individual jobs?
    And maybe we will start at the other end since--Mr. 
McCarty, if you wanted to start with that?
    Mr. McCarty. Well, there is ``a thing'' that we are doing, 
and we certainly can use support, and I want to bring it to 
your attention, Senator. And it is here in Washington State is 
receiving a lot of attention. That is the First Robotics 
competition.
    Boeing is a large sponsor of that, as well as other 
companies here in Washington State. SPEEA has been an ongoing 
sponsor, and I am hoping to increase our role. SPEEA members 
work with the robotics teams in the schools and help them build 
their robots.
    But the point was how do you get young people interested in 
pursuing a career in manufacturing, aerospace, engineering, or 
the technical fields, and how do you give them hands-on 
experience? As we have heard, a lot of dads don't have garages 
or moms don't have garages to bring their daughters in and 
teach them some of these skills.
    But we can take that to the schools, and the students get 
their kit, they put on their safety glasses, they pick up their 
drills. They drill and solder and build their robots, and it 
generates a lot of enthusiasm and exposure.
    So we can do these kind of things. They are not terribly 
expensive, and they generate interest and enthusiasm in our 
young people and show them that a technical career can be 
interesting, rewarding, and satisfying.
    Senator Cantwell. Has that already taken place this year, 
or is it still coming up, the robotic competition?
    Mr. McCarty. I think this cycle is completed, and after the 
first of the year, we will be starting the next cycle.
    Senator Cantwell. All right. Thank you.
    Ms. Hopkins. I actually have three things. I know I am 
supposed to stick to one. But----
    Senator Cantwell. OK.
    Ms. Hopkins.--the first thing, I would say, is assistance 
with the FAA. We have a lot of issues that we are trying to 
resolve with the FAA. And so, getting to a place of 
collaboration rather than where now it seems like we are 
constantly battling them would be a really significant step for 
us to be able to move forward. So that would be one big piece.
    The second item would be around apprenticeship utilization. 
We are far behind other nations around the world in terms of 
utilizing apprenticeship. Even just in Scotland, they have an 
$800 million budget in Scotland for apprenticeship. I think, in 
Washington State, we have about a $1 million budget for the 
entire system. So there is a lot of work that could be done 
there around supporting apprenticeships and using that as a 
model of training.
    And then the third piece I would just say is partnerships. 
I had the great opportunity to go to the Paris Air Show this 
past year. And while we were there, we were able to witness the 
collaboration between Lufthansa Airlines and their local 
entities. And they actually created not an organization, but 
they built a site that was utilized in partnership, and it was 
funded by a partnership of the university, the 2-year and 
community technical colleges, businesses, and the government 
all came together and chipped in. And they all share that site.
    So they have one fuselage, and on there, you have the 
university researchers doing research on how to utilize the 
cargo space. On the top part of that fuselage, you have wiring 
where the 2-year degree folks are learning how the wiring 
system works, and they are transferring information between 
each other. And the government and the employees are the ones 
who are funding the researchers from the university.
    And so, this amazing partnership model I think is something 
that we are going to need to do more and more in the United 
States in order to be more efficient and effective.
    Thank you.
    Senator Cantwell. Thank you.
    Dr. Dunlap. Well, I had two things. And Laura mentioned 
one, and that is to bring the FAA training systems into the 
21st century. That desperately needs to be done not only for 
veterans, but just in terms of bringing the curriculum up to 
date.
    The second is that many of our career and technical 
programs are funded by Carl Perkins funding, which is Federal 
funding for those types of programs. And it seems that every 
legislative session, there is a threat to cancel or reduce 
funding for those programs.
    And it is critical that that funding remain in place or 
even increase because without that, you will see even more 
career and technical programs at the high school and college 
level disappear.
    Senator Cantwell. Thank you.
    Ms. Schaeffer?
    Ms. Schaeffer. Additional funding support for the student 
loan program that we have through the WATR Center, as well as 
some funding support to the skills centers so their students 
can participate and earn that core aerospace certificate before 
they graduate.
    Senator Cantwell. Before they graduate from the----
    Ms. Schaeffer. High school.
    Senator Cantwell. OK. And how many high schools offer that?
    Ms. Schaeffer. We would collaborate with the high schools 
or the skills centers, as we are starting to do now. And 
Edmonds Community College WATR Center is offering some 
scholarships. But if we could offer more scholarship-type 
opportunities for those high school students to recruit them 
and get them excited, we are sure that more and more students 
would pursue aviation and aerospace.
    Senator Cantwell. OK. Ms. Gilman?
    Ms. Gilman. Well, my recommendation is to create more 
models that are responsive to workplace, workforce needs. And 
that would be a longer conversation than right now, but we 
would like to be asked. We would like to be engaged in the 
conversation and the work to help to be more responsive. And 
certainly, that needs to go from kindergarten through 12th 
grade and on into the post-secondary education system.
    Senator Cantwell. Great. Mr. Bearden?
    Mr. Bearden. I think, first off, I would have to agree with 
Laura that we have fallen behind as a country. And I think some 
of the evidence of that is--and this is no offense to the 
industry and corporations--is how they are looking for quicker 
fixes to the problems they are facing right now. I think that 
is because they have let our manufacturing and training of 
young folks to fill in when us folks that are going to retire, 
leave, do.
    We like to call the apprenticeship the original 4-year 
degree because when you hire a journeyman, a graduated 
apprentice that is now a journeyman, you can't have a finer 
employee, skills wise. I can point to few of them sitting in 
this room that I know are journeymen.
    I think that this is all of our problem. This isn't a 
problem that the Government just needs to throw money at or the 
companies need to throw money at. This is a decision on whether 
we want this country to remain the number-one manufacturing 
country in the world. And if we believe that, then we all have 
to invest. Whatever we can invest, we have to, whether it is 
our time, whether it is volunteering, whether it is companies 
supporting apprenticeships, like AJAC and our internal IAM-
Boeing joint apprenticeship.
    That is what we have to do, and it is a decision that we 
need to make. And if we keep waiting, we are going to be the 
losers.
    Senator Cantwell. Well, I can't say it better than that. So 
we will definitely take this information back to Washington, 
D.C. Again, thank you all for participating in it, and I thank 
the chairman of the committee for allowing us to have this 
field hearing.
    We are going to focus on aviation manufacturing, Mr. 
Bearden. We are not going to let that happen. We are going to 
take up the charge, and I just thank everyone for participating 
in this important hearing and look forward to working with you 
on these solutions.
    We are adjourned.
    [Applause.]
    [Whereupon, at 12:33 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
